<html>
<title> - NATIONAL PARKS OF HAWAII</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                        NATIONAL PARKS OF HAWAII

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 1, 2005

                               __________

                           Serial No. 109-147

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-922                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
JEAN SCHMIDT, Ohio
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                       Marc Wheat, Staff Director
                 Jim Kaiser, Professional Staff Member
                           Malia Holst, Clerk
            Tony Haywood, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 1, 2005.................................     1
Statement of:
    Hays, Frank, Pacific Area Director, National Park Service, 
      accompanied by Geri Bell, Superintendent of the Kaloko-
      Honokohau, Marilyn Parris, Superintendent of Haleakala 
      National Park, and Cindy Orlando, Superintendent, Hawaii 
      Volcanoes National Park....................................    10
    Obey, Craig, vice president, government affairs of the 
      National Parks Conservation Association; Suzanne Case, 
      executive director of the Nature Conservancy in Hawaii; 
      George Sullivan, chairman of the Arizona Memorial 
      Association; and Casey Jarman, board member of the Friends 
      of Hawaii Volcanoes National Park..........................    40
        Case, Suzanne............................................    56
        Jarman, Casey............................................    64
        Obey, Craig..............................................    40
        Sullivan, George.........................................    63
Letters, statements, etc., submitted for the record by:
    Case, Hon. Ed, a Representative in Congress from the State of 
      Hawaii, prepared statement of..............................     8
    Case, Suzanne, executive director of the Nature Conservancy 
      in Hawaii, prepared statement of...........................    58
    Hays, Frank, Pacific Area Director, National Park Service, 
      prepared statement of......................................    14
    Jarman, Casey, board member of the Friends of Hawaii 
      Volcanoes National Park, prepared statement of.............    66
    Obey, Craig, vice president, government affairs of the 
      National Parks Conservation Association, prepared statement 
      of.........................................................    43
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3


                        NATIONAL PARKS OF HAWAII

                              ----------                              


                       THURSDAY, DECEMBER 1, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      Honolulu, HI.
    The subcommittee met, pursuant to notice, at 10:11 a.m., at 
the Hawaii State Capitol, room 329, 415 South Beretania Street, 
Honolulu, HI, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representative Souder.
    Also present: Representatives Abercrombie and Case.
    Staff present: Marc Wheat, staff director and chief 
counsel; Jim Kaiser, counsel; Mark Pfundstein, professional 
staff member; and Tony Haywood, minority counsel.
    Mr. Souder. The subcommittee will come to order. Good 
morning, and thank you for joining us today. This is the 
seventh in a series of hearings focusing on the critical issues 
facing the National Park Service. I would like to welcome 
Members of Congress who joined us today who deeply care about 
the National Parks, like Congressman Abercrombie and 
Congressman Case. I have worked together with them on numerous 
issues, and it's good to be here with them here in Hawaii.
    This hearing will focus on parks in Hawaii. Millions of 
Americans have been captivated, either in person or on 
television, by the nearly continuous eruptions of Hawaii's 
volcanoes. The unparalleled sight active volcanoes are a unique 
part of the National Park Service.
    Also unique among the National Park Service units is that 
of the USS Arizona Memorial. This site, a memorial to those who 
lost their lives on a quiet Sunday morning nearly 64 years ago, 
holds a special place in the hearts and minds of Americans.
    The National Park Service is facing many challenges and 
problems. Management and funding are of constant concern to all 
park units. Underneath these issues are problems special to 
each park unit. In Hawaii, visitor services are of a particular 
concern. The popularity of Hawaii's parks and the number of 
people wishing to visit them pose many difficulties. The USS 
Arizona Memorial's location, in the middle of Pearl Harbor, 
places special demands on the National Park Service--how does 
the Park Service transport so many people out to the Memorial, 
and how can this be improved?
    Moreover, the tendency of lava to move and flow where it 
wants creates a problem because people want to visit the lava. 
Moving visitor's centers closer to lava or losing centers to 
lava flows is certainly costly and hard to manage.
    Also of concern to the National Park Service is the cost 
involved with invasive species. A problem throughout the United 
States and throughout Park Service units in every region of the 
country, Hawaii may be one of the best examples of this 
problem. The enormous task of combating this problem 
undoubtedly impacts management and funding considerations on 
many levels.
    I would like to welcome Congressmen Neil Abercrombie and Ed 
Case to this hearing. Although not Members of this committee, I 
welcome them to join the panel for this hearing. Both gentlemen 
are strong advocates for Hawaii and for the National Parks.
    Our first panel I would like to welcome Frank Hays, the 
Pacific Area Director of the National Park Service. He will be 
joined during the questioning time by Geri Bell, Superintendent 
of the Kaloko-Honokohau--close?
    Ms. Bell. [Shakes head].
    Mr. Souder. No. Marilyn Parris, the Superintendent of 
Haleakala National Park, and Cindy Orlando, the Superintendent 
of Hawaii Volcanoes National Park.
    Mr. Souder. Our second panel will be Craig Obey, vice 
president for government affairs of the National Parks 
Conservation Association; Suzanne Case, executive director of 
the Nature Conservancy in Hawaii; George Sullivan, chairman of 
the Arizona Memorial Association; and Casey Jarman, board 
member of the Friends of Hawaii Volcanoes National Park.
    Last summer I spent 3 weeks here doing narcotics-related 
things in the parks and was able to visit with many of you at 
the different parks and see firsthand the variety of 
challenges. One of the most troubling--and I hope we can get 
into it a little bit, too. We were just talking about the 
lawsuit at Hawaii Volcanoes and the one over at Haleakala where 
the person fell into the water and drowned. It is a huge 
challenge how to figure it out, with so many tourists that do 
not follow the signs. And unless you're going to put a ball and 
chain around them, how you can enjoy the visitor experience?
    I also saw firsthand--fortunately the Navy took me out to 
the Pearl Harbor site, but I saw that in the summer and earlier 
in January, the long lines. And it isn't just a small visitor 
center. I think in the summer it's a 6-hour wait to get tickets 
to the USS Arizona. There's only so many the actual site can 
hold, in addition to the visitor's center challenge. So we have 
some huge challenges with that Memorial.
    I thank you all again for coming and yield to Congressman 
Abercrombie.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T7922.001
    
    Mr. Abercrombie. Thank you, Mr. Chairman. I know you're 
anxious to get to the panel. I just want to say welcome to you. 
We're delighted that you're here, and I want to indicate to all 
the folks here you may find it unusual that the Committee on 
Government Reform is hearing something having to do with parks 
or the other subjects that are before us, and it has to do with 
a philosophy. For one thing, we're fortunate that Mark is an 
alumnus of the Resources Committee, so you already have someone 
with familiarity with what we're trying to do. And he's trying 
to promote at the present time a way to deal with the National 
Parks through his National Park Centennial Act dealing with the 
maintenance backlog, and hopefully that we can deal with this 
in a volunteer way, in certain respects. Across the country, 
there are people who love the parks and want to see them 
succeed.
    So what's happening here today? I'm a great believer that 
politics is addition; the more people you can get for you and 
where you want to go, the better off it is for whatever reasons 
they have. And the reasons, the rationale of the Committee on 
Government Reform has a different mission than the Resources 
Committee, but the result is the same, if we're able to get 
exposure for the meritorious activity we're trying to promote 
regarding parks, particularly here in Hawaii today.
    So we're delighted that he's here and we're delighted to 
participate in this hearing. I'm delighted that yet another 
Member, particularly a Member with the influential position 
that he occupies as chairman here of the subcommittee, I'm sure 
we're--I'm confident at the end of the day we're coming out of 
here with another ally in our quest to get full funding for the 
activities that are associated with the Memorial and with the 
National Parks in Hawaii.
    Mr. Souder. Thank you. Congressman Case.
    Mr. Case of Hawaii. Thank you very much, Congressman. I 
want to join Representative Abercrombie in thanking you for 
doing this. I think Mark alluded to it in his opening remarks, 
but I wanted to let everyone know that he's been a strong 
supporter of Hawaii, both in this area as well as in the area 
of crystal methamphetamine, where he is rightly regarded as a 
leader in our county's effort in that way. He was at a hearing 
with me in Kailua-Kona, a field hearing, I guess you would call 
it, not an official hearing, but certainly a full-scale meeting 
on Maui on that, spoke yesterday at a national conference 
that's taking place right here in Hawaii right now, as he 
noted, has visited our parks, is interested in our parks, and 
is regarded as a national leader in terms of protecting and 
saving our National Parks.
    Let me make a couple of introductory remarks. I hope the 
people that are going to testify get to some of these points, 
but I think the first thing I want to say on behalf of all of 
us Congressmen is that here in Hawaii we love our National Park 
system. We have a very, very long history with our National 
Park system, going back almost a century. We have great 
National Parks and units within the National Park system, eight 
in all. They have some common similarities, but they're quite 
different also. If you go to each one of them, you will see the 
uniqueness of them. Some focus on geological and cultural and 
scenic issues, some on history, some on recreation.
    We have a very obviously unique one at Kalaupapa, the 
National Historic site on Molokai, which you're still waiting 
to get to and we're going to try to get you to that. That park 
is actually celebrating its 25th year this year. Of course we 
have the USS Arizona, in dire and pressing need of some 
rehabilitation and kind of an upgrading to handle crowds and 
interest that is way beyond anything that anybody could have 
reasonably projected when that was going.
    I think the second thing I want to do is just commend the 
employees of the National Park Service. I think we would all 
say that in all of our experiences we have great employees 
here. We have the best professional staff throughout the 
Federal Government, and it's been a real pleasure for me 
personally--and I'm sure Neil will echo this as well as 
everybody else--to work with each and all of you. You're 
fantastic, easy to work with from a congressional perspective. 
We're all on the same page. When we have issues, we work them 
out together. So I really thank you for that.
    A couple of kind of specific points. Clearly, as you look 
at the challenges facing our National Parks, I think the first 
one, of course, is perhaps unlike some of the units in the 
states on the mainland. I think it would be fair to say that 
most of us want to expand the National Park system in Hawaii, 
and I certainly am among them. I believe that Hawaii's natural, 
historic, cultural, scenic, recreational, open spaces are under 
attack, under threat, and are not going to survive unless we 
protect them. The National Park systems offers a perfect 
opportunity to protect them. The question is one of priorities. 
The question is priority of what we bring in, what is 
consistent with the mission of the National Park system, and 
how we bring them in, just as a raw level of funding.
    At the National level, and I may disagree with the National 
Park system a little bit on this, at the National level the 
focus from the top policy perspective at this point has been 
not on acquisition but on repair and maintenance. And I have 
made the statement in the past, and I believe it, that you can 
repair and maintain any time you want, but when you miss the 
opportunity to acquire, it's missed forever. And we have those 
situations throughout Hawaii. I have introduced into Congress 
various proposals to in fact expand the National Parks area 
right here in Hawaii, and in particular, areas that are 
especially threatened.
    I would probably say the top one would be the Ka`u coast on 
the island of Hawaii, which I hope and believe should be an 
extension of the National Park system coming down the southeast 
coast of Hawaii along the incredible coastline. Mr. Hays has 
kindly undertaken a reconnaissance study of adding that. We 
have the so-called Kahuku Makai parcel. We just had a major 
acquisition for a National Park on Hawaii, on the mauka side, 
tremendous expansion of the park, now if we can finish that 
job. Over on Maui, the north coast of Maui between Paia and 
Spreckelsville, an incredible resource that will be lost pretty 
soon to development if not protected, and then the south coast 
also around what is referred to as Pi`ikinau, a unique area of 
cultural significance which has its own challenges. Right here 
on Oahu, we have some possible sites for the National Park 
system. Over on Kauai, we have the Mahalapu, which is an 
incredible coastline resource. We have many, many areas that 
frankly I'd like to expand and potentially bring into the 
National Park. Clearly that's an issue of funding.
    I am proudly a co-sponsor of your bill, Congressman Souder. 
I want to make sure everybody knows about the National Park 
Centennial Act, which was introduced by Chairman Souder here, 
which tries to provide a couple of things. First of all, just a 
recognition of where we are with the National Park system, but, 
second, a realistic way to fund both the acquisition and the 
repair and maintenance. It is going to be increasingly harder 
for us to do this out of the general fund of the U.S. Treasury 
as we go through the next 10 to 20 years.
    So we can either fight that battle all we want or try to 
develop alternatives by which we can provide for a realistic 
way of funding on a directed basis and satisfying the desire of 
many, many millions of citizens of our country to bring these 
into the National Park system and to take care of them. So I 
would cite that specifically as an issue we have to walk 
through, whether it be dedicated Federal funding or enhanced 
means for private-public partnering, which have been a real key 
to success right here in Hawaii, through some of the testimony 
you'll hear right here in the second panel, and perhaps in the 
first panel as well.
    The second area I want to just highlight briefly are 
invasive species. Our environment here in Hawaii is unique and 
one of the most endangered in the world, the invasive species 
capital of the world. And that is true whether you're in a 
National Park or not in a National Park. It's our National 
Parks that we're trying to protect, our natural environment, 
and one of the mistakes that we sometimes make is to 
distinguish between National Park and everybody else. In 
reality, the invasive challenges are everybody's problem. I 
personally have come to the conclusion that the only way for us 
to really prevent invasives is to have the equivalent of the 
New Zealand incoming inspection system. It's very successful 
there, and which we use here in Hawaii on an outgoing basis to 
protect California. We're not busy protecting ourselves. We're 
busy protecting the U.S. Mainland from invasives from Hawaii, 
which ironically came from the mainland for the most part.
    Nonetheless, we have had--I hope the first panel highlights 
some of the examples where we have had invasives destroy 
natural wildlife. So we have to work on joint efforts which are 
not just efforts on behalf of the National Park, but everybody 
to provide a greater level of protection.
    Finally, just two quick points and then I'll turn it over. 
We clearly have stress on many of our visitor facilities here. 
Haleakala, I think, is probably the one that has the highest 
intensity of focused visitor ship on any single day. Hawaii 
Volcano National Park is real spread out and accommodates it 
better, but Haleakala is one road to the top and one road back 
down and it's pretty stressed out. Our National Park there 
needs to develop some pretty innovative visitor management 
kinds of issues that may be along the lines of Yosemite that 
just became necessary as a result of the popularity of that 
park, and, of course, the old adage that we're going to love 
some of our National Parks to death if we don't watch it.
    And then finally, I think everybody will attest to this, 
whether they say it or not. I have freedom of saying whatever I 
want. Nobody's censoring me. But certainly I've been listening, 
and I think that clearly many of our parks are functioning 
under management plans, management regimes which are a quarter 
century old. Hawaii's changed in a quarter century. The parks 
have changed in a quarter century. The focus has changed. The 
usage has changed. The entire scheme under which they're 
operating has changed. They are short of the fiscal and 
management abilities to develop updated management plans. I 
think that's a penny rich and a pound foolish. So I would 
hope--and I hope this is coming out of the hearings throughout 
the rest of the country, but I would hope that one of the 
things we commit ourselves to as we move forward is simply 
updating some basic long-range management plans for our parks. 
Hawaii Volcanoes needs it, Haleakala needs it, Kaloko-Honokohau 
needs it, and many others.
    So those are the areas that I think are at issue here. Some 
of them are similar to the rest of the country, some of them 
are a little more unique to Hawaii. For example, the invasives, 
I think, is much more acute here than the rest of the country. 
The solutions are much more manageable than the rest of the 
country in that area, but we're going to take care of our 
National Parks. Thank you very much.
    [The prepared statement of Hon. Ed Case follows:]

    [GRAPHIC] [TIFF OMITTED] T7922.027
    
    Mr. Souder. Thank you. Next, we have some procedural 
matters, before we hear the testimony. First, I ask unanimous 
consent that all Members have 5 legislative days to submit 
written statements and questions for the hearing record, and 
that any answers to written questions provided by the witnesses 
also be included in the record. Without objection, it is so 
ordered.
    Second, I ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members and 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Finally, I ask unanimous consent that all Members present 
be permitted to participate in the hearing. Without objection, 
it is so ordered.
    That gives me the opportunity to make one other point, and 
that is that in the sometimes difficult environment of 
Washington we've had incredible bipartisan flexibility in our 
subcommittee. We were hoping that Congressman Cummings was 
going to be able to join us. He originally was planning to and 
at the last minute could not. Our Democratic Minority Staff 
Director is here as well, Tony Haywood, but we've been able to 
have a lot of flexibility in how we conduct hearings because of 
the bipartisan nature of how we try to work through our 
subcommittee, both on this and other issues, and I appreciate 
that as well on the full committee level with Chairman Davis 
and ranking Member Waxman. And it's enabled us to do these with 
flexibility, have other Members joining our hearings, which is 
a waiver of normal House rules. This and meth are the only two 
things right now that we've been able to get some bipartisan 
cooperation on and it's exciting to try to pull this through 
with the National Park Service, because historically it's been 
a tremendous opportunity. And we have had at our different 
hearings--when Jim Ridenour, however, when he testifies in 
January at a hearing in the Chicago region, I think he will be 
our fourth former Park Service Director participating at these 
hearings, so we appreciate them and the entire executive core 
for speaking out as well.
    With that, would our first panel like to begin with the 
opening statement of Frank Hays, Pacific Area Director of the 
National Park Service. We have a clock here that gives a 
rough--the red means stop, which is 5 minutes. It starts at 
green, turns yellow at 4. We're going to work this on Hawaii 
time, which means up to 20 minutes. We'll be flexible. We know 
we want to get through the two panels. And I forgot to swear 
everybody in. Because it's Government Reform, we need to do 
that. So could each of you raise your right hands?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Mr. Hays.

 STATEMENT OF FRANK HAYS, PACIFIC AREA DIRECTOR, NATIONAL PARK 
   SERVICE, ACCOMPANIED BY GERI BELL, SUPERINTENDENT OF THE 
 KALOKO-HONOKOHAU, MARILYN PARRIS, SUPERINTENDENT OF HALEAKALA 
   NATIONAL PARK, AND CINDY ORLANDO, SUPERINTENDENT, HAWAII 
                    VOLCANOES NATIONAL PARK

    Mr. Hays. Thanks.
    Mr. Souder. Now you really do have to change your 
statement, maybe.
    Mr. Hays. I'll cross out things and stuff. I can start out 
by saying I've never used steroids, so I can attest to that.
    Mr. Souder. Or masking agents.
    Mr. Hays. That's right, or masking agents.
    Mr. Chairman, thank you for the opportunity to appear 
before you, Representative Abercrombie, and Representative Case 
today on this hearing on National Parks in Hawaii. We are 
pleased to welcome you to Hawaii and appreciate your interest 
in our work here.
    As the Pacific Area Director, I oversee the seven National 
Park units and the Alaka`ahai National Historic Trail in 
Hawaii, and units in Guam, American Samoa, and Saipan. I'd like 
to summarize my testimony and submit my entire statement for 
the record, if that's OK.
    We have seven parks in Hawaii. On Oahu, the USS Arizona 
Memorial commemorates the attack on Pearl Harbor. The other six 
units on the other Hawaiian islands protect and interpret the 
range of natural and cultural resources, including many 
associated with native Hawaiians. Three units built around 
archeological sites on the island of Hawaii are specifically 
devoted to native Hawaiian culture.
    In addition to preserving and interpretation sites that 
draw visitors to Hawaii, the NPS also works with Hawaiian 
residents in building partnerships to enhance resource 
protection. The National Park Service's Rivers, Trails, and 
Conservation Assistance Program has been assisting local 
recreation groups on Maui, specifically, outside of areas of 
the National Parks to develop well-managed off-road vehicle 
areas, enabling ATV enthusiasts to enjoy that activity while 
helping to protect Hawaii's resources.
    We wanted to give you kind of a brief summary of the 
visitor service issues that are going on in Hawaii, and we 
tried to take a strategic look at visitor services. About 1.5 
million visitors come yearly to the USS Arizona Memorial to pay 
their respects to the 2,300 members of the armed services who 
made the ultimate sacrifice for the Nation. In the attack on 
Pearl Harbor, about half of them died on the USS Arizona. The 
current visitor's facility, which was mentioned a while ago, is 
deteriorating and is often overcrowded, since it was designed 
to accommodate only half of the number of visitors it currently 
receives.
    Right now the Arizona Memorial Museum Association is 
heading up a $34 million fundraising effort for a new visitor 
center that will offer more exhibits and amenities. And we're 
also moving toward coordinating ticketing, parking, security, 
and concessions with the non-profit operated USS Bowfin 
Submarine Museum and the USS Missouri, and as well as an air 
museum that's being proposed for Ford Island. All of these 
efforts will greatly improve the visitor experience at the USS 
Arizona.
    Haleakala National Park also attracts about 1.5 million 
visitors annually, and an increasingly large number of those 
folks want to experience sunrise right at the Haleakala summit, 
so we are now developing a Commercial Services Plan that will 
help us better manage visitor use. We want to enable visitors 
to enjoy the sunrise more and to help them better understand 
why the site has so much spiritual significance for the native 
Hawaiians, and also to encourage folks to visit Haleakala at 
all times of the day. Sunsets are spectacular from the summit 
as well.
    Kaloko-Honokohau National Historic Park has recently been 
made more accessible by the opening of a visitor contact 
station and parking lot adjacent to park trails, and we 
anticipate opening a similar facility within the next year at 
the Pu`ukohola Heiau National Historic Site, and those are 
fairly self-service visitor contact stations.
    Hawaii Volcanoes National Park has the newly renovated 
visitor center as well, and that offers very nice, state-of-
the-art maps and it also has the Jagger Museum, which is 
operated by the U.S. Geological Survey, where visitors can 
learn more about volcanoes. Of course we have Cindy here today. 
I'm going to have to talk to her afterwards because she lost 34 
acres of her park yesterday when a large lava bench fell into 
the ocean. So I don't know what we're going to do about that. 
No, actually, it's quite an amazing park to be able to see 
those active landscape scale activities going on. And we also 
offer an intensive interpretation program at the lava's end by 
the ocean.
    Of course Congressman Case talked about the seriousness of 
invasive species, and that is a serious problem. Battling 
invasive species proliferation is the most serious resource 
protection problem our parks face. Because invasive species 
cross geographic and jurisdictional boundaries, we need 
collaborative efforts among Federal, State, and local entities 
and others to manage the problem. A critical area barrier that 
faces--NPS faces with these efforts is the lack of authority to 
expand Federal dollars for work outside the land it manages. 
And we're--NPS and the Department of Interior are trying to 
address that problem with the legislative proposal that the 
administration has submitted to Congress to give the National 
Park Service authority where there's clear and direct benefit 
to park natural resources. Passage of this legislation would 
give the NPS the same authority that the other three major 
Federal land management agencies already have.
    And with the continual arrival of new invaders to Hawaii, 
the problem of non-native species occupying park areas only 
increased. The Coqui frogs are beginning to appear in Hawaii 
Volcanoes National Park. These frogs will consume the insects 
that native birds depend on and that pollinate the Hawaiian 
forest, and will interfere with the natural quiet. If you've 
ever been around a bunch of Coqui frogs, you know it interferes 
with the natural quiet.
    On Oahu and Maui, the recently arrived rust, and I'm not 
talking about stuff on your car, initially found on ohia trees 
in plant nurseries, has now been observed in wildland ohia 
forests and is potentially a very serious problem.
    The veiled chameleon, which is considered by island 
biologists to have the potential to decimate native bird 
populations, is similar to what the brown tree snake has done 
on Guam. In addition, invasive marine algae can kill corals and 
significantly impact the health and biodiversity of coral reef 
communities and could result in major financial losses to the 
tourism industry as well. One area that has been recently 
invaded is Kaloko fishpond in Kaloko-Honokohau National 
Historic Park. Red algae currently covers about a third of the 
bottom. In addition to restoring this important native historic 
resource, we want to prevent the algae from spreading to the 
reef adjacent to the fishpond and throughout the Kona 
coastline. And the University of Hawaii is joining us in 
dealing with that issue.
    At Haleakala National Park, over 20 years of fencing and 
feral animal control, followed by invasive plant control and 
rare plant stabilization, has resulted in spectacular recovery 
of native species. If you go up there, you can see silver sword 
coming back in large numbers and other species. However, non-
native species, such as Miconia, which is called the green 
cancer, threatens to reverse this recovery. Pampas grass and 
silk oak also threaten to convert native grasslands and forests 
into single invasive species stands. So far these three species 
have been eradicated from parklands through joint partnership 
efforts, but reinvasion is a constant threat.
    One way we do address invasive species is through our 
Exotic Plant Management Teams, which provide highly trained, 
very mobile strike forces of plant management specialists who 
assist parks in the identification, treatment, control, 
restoration, and monitoring of areas infested with invasive 
plants. Another way is through the Department of Interior's 
Cooperative Conservation Initiative, through which land 
management agencies partner with landowners and communities to 
battle invasive species and restore natural areas. And yet 
another partnership is with the Student Conservation 
Association, where student teams are building our capacity to 
address the problem. We anticipate that the Noxious Weed 
Control and Eradication Act, passed by Congress last year, will 
help provide financial and technical support to our State 
partners in controlling weeds.
    We work with all partners at all levels of government as 
well as in the private sector in addressing the invasive 
species problem. One example of a successful public-private 
partnership that's occurring at Hawaii Volcanoes is with the 
`Ola`a Kilauea Partnership. The partnership's goal is to 
enhance the long-term survival of native ecosystems and manage 
420,000 acres across multiple ownership boundaries. The 
partnership also offers valuable educational and cultural 
benefits by providing staff and field sites for hands-on 
environmental education activities for teacher workshops and 
student programs. The private landowner in the area plans to 
restore the ranch adjacent to the park and use the entire area 
for conservation, cultural enrichment, and education.
    The most cost effective and successful strategy for 
battling invasive species--I think Congressman Case mentioned 
this--is preventing them from entering Hawaii or our National 
Parks. New and innovative programs are being established to 
institutionalize prevention programs and the National Parks 
Service's Inventory and Monitoring Program networks are helping 
parks develop monitoring programs for the detection of new 
invasions, so a quick response can ultimately remove the threat 
before it becomes unmanageable.
    Mr. Chairman, that concludes my statement. I'd be happy to 
answer any questions you have.
    [The prepared statement of Mr. Hays follows:]

    [GRAPHIC] [TIFF OMITTED] T7922.002
    
    [GRAPHIC] [TIFF OMITTED] T7922.003
    
    [GRAPHIC] [TIFF OMITTED] T7922.004
    
    [GRAPHIC] [TIFF OMITTED] T7922.005
    
    [GRAPHIC] [TIFF OMITTED] T7922.006
    
    Mr. Souder. Let me start with a kind of off--because I 
think it's safe to say, given the number of regions that we're 
hoping to cover, and in fact we're headed into an election 
year, that we're not going to get to Guam, Samoa, Saipan, or 
other territories. Can you submit for the record, if you have--
we'll work with some questions of how to do this, but some one-
page summaries on what--two pages so we can put them in our 
hearing book report, and then maybe we can work into this 
hearing Puerto Rico and the Virgin Islands and have a 
subsection on these territories.
    Up until I went on the Resources Committee, quite frankly, 
when I first got on the committee and saw all the delegates, I 
wondered, why are you on this committee? Most of the 
constituents I represent or Americans don't know what 
percentage of these islands we actually own, how much land 
space has been turned over to the Park Service. So if in each 
one of these you could give a couple of the challenges that 
you're dealing with there, an idea of visitation, idea of 
budget, and whether it's flat, going up or down, and what you 
have there. What we're going to do systematically is match up 
our hearings and give 3 years of--here's 1 year, here's 1 year, 
and here's the last year, to see where the FTDs are and the 
budgets are. We may get that out of our headquarters. I'm not 
sure yet which way we're going to do that. That's when we get 
toward the end.
    We're going to sit down with them, figure out what is the 
most simple way to do this, but also not only the acreage but 
the percentage of the land there that is the Park Service. 
Because it's interesting, for the record, also Fish and 
Wildlife, I don't know that there are Forest Service, and then 
also try to get the military an idea of what percentage of 
Guam, what percentage of American Samoa, what percentage of 
these places are actually under the U.S. Government and how do 
we interrelate things like invasive species, visitor services, 
land utilization, because we dominate many of those islands.
    Mr. Hays. That's correct, even the--this is off the top of 
my head, but I believe the National Park Service controls 20--
well, we lease from the American Samoa government 20 percent of 
American Samoa, which is pretty substantial amount of their 
land base.
    Mr. Souder. Then first kind of, we'll probably deal with 
this more on the second panel, but on the USS Arizona 
challenge, it's very confusing for me that the--what's 
military, what's what branch of the military, the Missouri 
isn't part of the Park Service. You've made a statement here 
that you're going to try to coordinate those together, and Ford 
Island Air, would that be Federal or would that be private?
    Mr. Hays. Those are the three non-profit organization 
attractions, but to provide a very kind of seamless visitor 
experience.
    Mr. Souder. Like in Oregon they have a pass for whether 
you're--first off, just getting the Bureau of Land Management 
and Fish and Wildlife to partner, and then they have the State 
Parks where you get a pass that's good for everything.
    Mr. Hays. I think they're looking closer at kind of a 
ticketing facility where you can package tickets to all four 
attractions together and individually, and of course the three 
non-profits may evaluate it sometime, too, to do a package deal 
for their sites. But the Arizona, because the ticket is kind of 
the access onto the tour and it's a no-cost ticket, I think 
that would remain separate.
    Mr. Souder. This is a side point, but I have the Lighthouse 
Transfer Bill, and some of the non-profit groups should learn 
from that, make sure that if there are--sounds like you're not 
going to do this, but if you do, we have an incredible problem 
with disentangling the dollars. Because when you have any 
agency transfer--DHS is now trying to claim this private 
group's money.
    Mr. Hays. Yeah, the effort has been going on for several 
months now, but it's still in the preliminary stages. I think 
the direction that they're leaning is kind of a joint ticketing 
facility.
    Mr. Souder. And in this, is the $34 million for the museum 
and new visitor center, is that viewed as mostly private, 
public-private, how do you see that?
    Mr. Hays. That's the fundraising portion from the Arizona 
Memorial Association and the National Park Service through the 
line item construction program that's funding approximately $7 
million.
    Mr. Souder. You said it's projected in the budget? What 
year do you plan----
    Mr. Hays. In 2006, fiscal year 2006 it's in the line item.
    Mr. Souder. And we'll talk more on the Association. Are 
they coming along in the case of fundraising?
    Mr. Hays. They are. I think what I saw was about 12 
million, and they feel, you know, pretty solid about their 
fundraising.
    Mr. Abercrombie. May I interject?
    Mr. Souder. Yes.
    Mr. Abercrombie. Part of this has to do with us getting the 
agreement.
    Mr. Hays. That's correct.
    Mr. Abercrombie. And I'm confident, Mr. Chairman, that the 
private fundraising will roll once everybody knows that the 
deal's been set.
    Mr. Souder. You have space for it?
    Mr. Hays. Yeah, there's actually a concept plan that's 
been--we've actually, through luck and some happenstance and 
through a great cooperation with the Navy, current Admiral out 
there, looks like we're going to be able to transfer 6.6 acres 
that's between the Memorial--the Arizona Memorial and the 
Bowfin to the National Park Service for management. And that 
just facilitates the overall site plan and traffic flow plans 
to get people around to the various attractions up there.
    Mr. Abercrombie. I can assure you, Mr. Chairman, between 
Senator Inouye and myself, the cooperation with the military 
will be ensured.
    Mr. Hays. They have been very cooperative. Admiral Vitale 
should be commended for his efforts.
    Mr. Abercrombie. Excellent job. If he wanted to--don't get 
me wrong. I'm saying it with a smile on my face because they 
are--everybody is very anxious to participate in this. Believe 
me, it's not a question of competition or confrontation or 
anything. Quite the opposite, it's everybody making sure that 
from their own institutional base that they do the right thing 
in order to make sure there's a smooth conclusion to all of 
this, including whatever land transfers have to be done, 
whatever--you're quite right about ticket differentiation, 
different packages. That all has to be worked out, but they 
know they have to do it and it's well under way. The Park 
Service is kind of a focal of all of this.
    Mr. Souder. Do you----
    Mr. Abercrombie. The good part here, honestly, I think Mr. 
Hays will agree, is that the Park Service, having been a little 
bit of an orphan in this whole process in the past, now has the 
problem of so many foster parents----
    Mr. Hays. That's right.
    Mr. Abercrombie [continuing]. In the waiting room out there 
that it's a matter of coordinating all the positive--you've got 
so much help, you're not quite sure how to put it all together, 
right?
    Mr. Hays. They actually have formed what's called the Pearl 
Harbor Historic Partners, which includes the non-profits and 
the National Park Service working together to come up with 
business plans, kind of a--ticketing plans and so forth, 
traffic flow plans, and, you know, there are issues of trying 
to then coordinate with what's going on with the National Park 
Service plans. And since this 6.6 acres just recently came to 
us, or is going to come to us, that has set us back a little 
bit, but we're ready to move forward again.
    Mr. Abercrombie. It's a good problem to have.
    Mr. Hays. A great problem to have, and I think visitors, 
when they arrive there in a few years, will have--it's an 
overused term, but a world class experience to learn about 
World War II and the Pacific----
    Mr. Souder. Will the visitor center be large enough to 
accommodate what's been the outside waiting lines?
    Mr. Hays. Yeah, there's going to be a--there's 20--proposed 
for about 23,000 square foot interpretive center with exhibits. 
And, you know, people will be able to get their tickets and 
then have their choice of spending time up in the 23,000 square 
feet of exhibits, going to the Bowfin, maybe catching the bus 
over to the USS Missouri.
    Mr. Souder. And do you think that will alleviate some of 
the pressure?
    Mr. Hays. That should help quite a bit.
    Mr. Abercrombie. Mr. Chairman, again, if I might. This has 
been complicated a little bit by the fact that the city and 
county of Honolulu is now in the process of determining whether 
it's to have a rail transit line, and one of the stops on the 
rail transit line inevitably would be in the area of the 
Arizona Memorial and the stadium, which is called the Salt Lake 
area, and that has to be figured out. But if that comes to 
fruition, it will add to the logistical problems that we're 
speaking of right here because it will make it even more 
convenient for people to be able to come, say, from Waikiki to 
Pearl Harbor as part of their visitor experience, not that they 
have any problem attracting people now, but it will be even 
more convenient in that sense. Therefore, the kind of planning 
that's being undertaken right now has added pressure because 
the numbers may actually increase even over what was 
anticipated now.
    Mr. Hays. They're actually pretty limited at this point 
with operating dollars and so forth.
    Mr. Abercrombie. So would you agree that part of what has 
to be planned for here is the actual visit to the Memorial? And 
this, I think, is part of the confusion that you mentioned that 
takes place. That's one thing, and that's highly limited.
    Mr. Hays. Exactly.
    Mr. Abercrombie. A visit to the site, to the visitor 
center, or the various designations or various other non-
profits, that's another question entirely. Some people may be 
able to integrate all of those activities, but the likelihood 
of only a small percentage ever actually being able to visit 
the Memorial will remain a constant; isn't that the case?
    Mr. Hays. Unless they're able to increase the number of 
barges or the operating hours, but----
    Mr. Abercrombie. Even then----
    Mr. Hays [continuing]. The current status, yeah.
    Mr. Abercrombie. Even there you're still talking of an 
extraordinarily small number?
    Mr. Hays. That's correct.
    Mr. Abercrombie. And rightly so. I mean, the Memorial 
itself is not--you know yourself when we go to--at the Capitol 
the stairs become a question because so many millions of people 
walk on the stairs they actually get worn away. We can't have 
that happen to the Memorial, after all. And, logistically, only 
so many people can arrive there, so many hours in a day, and 
have it in the context of respect. This is not something where 
you troop up to the Venus de Milo with your camera and people 
have this--having done this just recently, watching people not 
actually viewing or experiencing the attraction, if you can 
call it that, itself, saying in this instance the statue, but 
they're taking pictures of it in a crowd sticking their cell 
phones in the air or something. They're not really doing it. We 
can't have this with the Memorial. This is not some kind of a 
free-for-all that takes place.
    Therefore, one of the difficulties--or one of the 
challenges--it's not a difficulty. It's a challenge. One of the 
challenges to be met is that the--and Mr. Sullivan I'm sure 
will speak to this when his turn comes, is that you have to 
provide an experience for the visitor who isn't actually going 
to go to the Memorial itself. The visitor has to be able to 
observe the Memorial is there and have some opportunity to 
experience that in a respectful way, but at a distance. And so 
there are various ways in which that can be accomplished. But 
we have to understand that the average visitor coming to the 
Arizona Memorial site is not going to go to the Arizona 
Memorial.
    So we have to have the observation venue, we have to have 
an experience which incorporates that visit in a respectful 
way, but takes into account that literally tens of thousands, 
in fact hundreds of thousands of people will be there without 
ever actually going to the Memorial itself. Is that a fair----
    Mr. Souder. Let me clarify that. If you don't have this, I 
do. How many people come to the Pearl Harbor site, park visitor 
site?
    Mr. Hays. It's 1.5 million visitors a year.
    Mr. Souder. And how many actually go out to the site?
    Mr. Hays. The majority are actually going out to the 
Memorial right now. They're getting tickets and going out 
there. I don't know the--I can get you the----
    Mr. Souder. Not the exact figure, but you think it's over 
50 percent.
    Mr. Hays. Yes.
    Mr. Souder. And if you can give us what the peak seasons 
are where the percentage drops the lowest.
    Mr. Hays. I do know that there's really not a peak season. 
It's busy all the time. There's a little bit of a drop, I 
think, in the fall and the spring, but it's pretty busy.
    Mr. Souder. Do you do on-line advance reservations?
    Mr. Hays. They do not yet.
    Mr. Souder. Do you see that coming?
    Mr. Hays. There is talk for on-line reservations.
    Mr. Souder. At any kind of preference?
    Mr. Hays. That I don't know.
    Mr. Souder. One of the concerns, if you look at this as we 
go to the 100-year Anniversary of the Park Service, how are we 
going to handle the most intense visitation points in the Park 
Service? And should there even be kind of a record where we say 
we have one shot at this? Yosemite Valley, right down to the 
Grand Canyon, how much of this should be advance plans, how 
much of it should be flexible, and how will we manage this? 
Because in effect you've got the equivalent of, or certainly, 
probably more so than most, this intense usage. But we dealt 
with this with the Grand Canyon for a long time. Unfortunately, 
that means anybody that plans a last-minute trip can't get 
there, and so how to balance those kind of things is a huge 
challenge. Getting to Old Faithful is getting to be an 
adventure. How do we do this?
    In my second round I'm going to do the other parts. This is 
where going out and seeing the Hawaii Volcanoes and seeing the 
lava at night last summer, it--I saw one of the advantages, 
which I don't exercise that often of being a Member of 
Congress, because you drove me up----
    Ms. Orlando. Shhh.
    Mr. Souder [continuing]. And saw what was there. And 
clearly warned, beyond the signs, that I was supposed to wear 
long pants, no flip-flops, and flashlights, otherwise I might 
not be walking as well today. But those type of experiences 
become very intensely used. How are we going to manage this in 
a fair and equitable way that--by the way, a huge advantage--
this is an even more explosive question, the huge advantage to 
more highly educated, upper middle class people who plan ahead 
and have the resources in which to plan ahead and to get to 
these sites. It's a tough, tough dilemma.
    And then the whole net thing becomes even more explosive 
when you have certain really important memorials like this that 
are so intensely meaningful. We haven't even talked yet today 
about what about kids and grandkids of people who were at Pearl 
Harbor, when grandkids come out to Hawaii and can't get to the 
Memorial site. Should there be some kind of consideration that 
we have to that family heritage? Because I know the 1-day we 
were there the tickets--you sell out the tickets early in the 
morning?
    Mr. Hays. They are distributed early in the morning, 
generally.
    Mr. Souder. I think by 9 a.m. they were gone.
    Mr. Abercrombie. We'll try to----
    Mr. Souder. Is it OK if I yield to Mr. Case?
    Mr. Case of Hawaii. Let me just first, for the record, 
endorse and indicate my support as well for everything Neil has 
said about the Arizona. I mean, although it's technically in 
the First Congressional, none of us stand on ceremony on that. 
And I agree that this is of the most immediate priority for the 
National Park system in terms of getting this right. We've got 
the critical mass. We've got the opportunity. We have the need.
    Mr. Hays, just a couple of quick questions. I spoke in my 
introductory remarks about acquisition versus repair and 
maintenance. And assume that you were acquiring for Hawaii, 
assume that we were considering additions to the National Park 
system. Do you have any sense of what would be the most acute, 
what would be most needed or consistent, whatever criteria you 
might use? I mean, where would we need to go in Hawaii to 
assure that natural resources appropriate for protection of the 
National Park system were in fact brought into the National 
Park system that are not now? Do you have a list that you're 
following?
    Mr. Hays. You're talking about specific geographical areas.
    Mr. Case of Hawaii. Yes.
    Mr. Hays. I would have to provide that for the record, 
because I don't know that.
    Mr. Case of Hawaii. Can I request that, Chair, a response 
to that.
    Mr. Souder. Yes. And if I could interject that it may be 
tough to get clearances to rank, but if you could provide 
things that the Park Service has considered and have been 
opposed to the Park Service. If you agree that you would have 
more reservations about some than others, then we can put our 
opinions in and sort that through, then that's more likely to 
get it through the process.
    Mr. Case of Hawaii. That's fair. I think it is a matter of 
priority. It is a matter of what we can do. It is a matter of 
what we want to do. It's a matter of kind of turning to the 
list of what is practically achievable under whatever climate 
we're dealing with over the next 5 years. I think it does have 
something to do clearly, I will state, with pressures for 
alternative use, where you have untouched--relatively untouched 
resources that otherwise would be lost forever.
    Mr. Souder. And let me put one other caveat, so we don't 
get back what we normally get back at this portion of the 
hearing, which is we believe we have to take care of backlog 
maintenance before we purchase additional lands, which is a 
clear statement that will come through. But if the Park Service 
got additional money and we said we were giving additional 
money to the State of Hawaii specifically for land purchase, 
then how would you consider these based on the recommendations 
of other types of things? And if they want you to put the 
boilerplate in front of it, that's fine.
    Mr. Case of Hawaii. We'll just put it in front. 
Boilerplate, it's done with, gone. We acknowledge the repair 
and maintenance side of things. Now let's get to the second 
part.
    Mr. Abercrombie. This is beyond repair and maintenance, 
way, way, way beyond that. So that's not an issue.
    Mr. Souder. But as you know, they always send out----
    Mr. Abercrombie. I know, but that's one reason we're happy 
you're here, Mr. Chairman, because we're talking about the 
actual facts on the ground and not a theoretical construct, or 
even a practical construct, but here that question is 
essentially secondary because we have to literally change--not 
literally change, but we'll worry about maintenance and the 
rest of it when we get the new facility. That's not what we're 
talking about. And I just want to make sure on the other part 
that I have it clear. We're talking about land here, primarily. 
Purchase is not necessarily a problem here. A lot of this has 
to do with transfer, right? The majority of what we're talking 
about, if we're talking about land, is less an acquisition 
question. I'm talking about Arizona and Pearl Harbor, talking 
less about acquisition----
    Mr. Hays. That would be a transfer.
    Mr. Abercrombie. Pardon?
    Mr. Hays. That would be a transfer from the Department of 
Navy.
    Mr. Abercrombie. And there may be--you've got the city, 
you've got--there's all kinds of things that might or might not 
take place, like as I said, with the transit circumstance, but 
principally we're probably dealing with an overwhelming 
majority, if not in its entirety, land questions involving 
transfer and responsibility rather than purchase problems that 
would require appropriations for that purpose.
    Mr. Souder. But in Mr. Case's question, as it relates to 
outside of the USS Arizona, to look at this--one of the 
supplemental types, if I may interject here, is that unlike 
many other areas in the country, the Park Service is mostly 
looking at reclaiming land, land that's been forested over, 
land that has--you know, a lot of the kind of crown jewel parks 
are overrun. In Hawaii, they're still crown jewel space, and 
it's either that or development. So some kind of combination 
also of what is the opinion of the Park Service, if Congress 
were going to allocate. Because we'll do what we want anyway, 
regardless of what the Park Service recommends. So it would be 
nice to have the Park Service proposals as to how you do the 
tradeoff of development threats, land that would be helpful to 
keep, and maybe you can make comments on this subject regarding 
some of the different proposals that are out there. Which ones 
would help invasive species control? Which ones are naturally 
more important for wilderness? Which ones would have the 
advantages for visitor usage that we keep open area? Which ones 
have developmental threat? Where are the State parks strong and 
where there might be a State park or private supplemental? If 
the Federal Government took some of the land, would Nature 
Conservancy or other groups be able to get other lands to hold 
so we pick up some of that?
    Give us some of the depth of the variation of the challenge 
in the islands of Hawaii, which are different than what we're 
hearing in other hearings. It's different because there is 
still undeveloped land that's under tremendous developmental 
pressure in Hawaii.
    Mr. Case of Hawaii. And then I think, following up, really, 
on both of those observations, you've worked throughout the 
system. Is there another way that we on the national level can 
look at the challenge of funding the National Park system, 
specifically acquisition? Not to take away from the repair and 
maintenance perspective, but I'm talking about acquisition. 
Because sometimes I feel we get stuck in the rut of, OK, we 
don't have enough earmarked in the park budget this year, so 
therefore we can't acquire. Whereas my impression of here in 
Hawaii is we've prevented--we haven't prevented, but we 
certainly have been utilizing some means of acquisition that 
works pretty well, private-public partnerships, acquisition by 
a private entity holding.
    I think we have to note that there are many people out 
there that are willing and able to donate their land to the 
National Park system. They're willing to let it come on in, and 
that's not just private entities. That's the State and county 
governments. We have several situations in Hawaii where the 
State government would transfer to the National Park system, 
you know, and we're not talking about monetary consideration. 
We're talking about protection.
    So the direct question is is there--given your experience 
in the system, are there unique means of funding or 
facilitating acquisition in Hawaii where there can be a lesson 
learned on the national level that we could somehow implement 
or change or fix or include in the Federal law? Or are we just 
like everybody else, we just kind of do it?
    Mr. Hays. I think--well, there are some unique examples in 
the Pacific island network with the number of leases that the 
Park Service does, you know, like with American Samoa where 
we're leasing from American Samoa. Now, those aren't no cost, 
but there could be no cost ways to do that. I can't think of 
other kind of innovative approaches that have been used. I 
don't know if my colleagues have any examples.
    Ms. Orlando. Public-private partnerships are pretty much 
it. You could also flip it to the other side, and I think--and 
I appreciate, Mr. Chairman, your bringing up the Oregon Coast 
pass, because that was something that I worked on. I think on 
the flip side, if we look at the National Park Service doesn't 
necessarily have to manage everything and we work with local 
communities. Mr. Hays alluded to the partnership that we have 
with Kamehameha Schools and their vision for really their own 
park. They shifted from back in the 1930's and 1940's, we don't 
want to be like the National Parks, to today asking themselves 
why don't we want to be like the National Park? So even co-
management might be another way to look at it, and I think 
Redwood National Park, certainly, up in the northwest, northern 
California is a good example of that.
    So co-management, seamless passes. Public doesn't know 
whose land they're on, and sometimes maybe they don't really 
care. They just know that every time they walk in the gate, 
they're getting dinged another $10 or $5. I think those might 
be some ways.
    Mr. Hays. The Kona Coast Task Force that the State 
legislature just recently chartered I think in a couple years 
will tell whether that's an effective approach to managing some 
of the lands in the Kona Coast. There's a community-driven kind 
of approach to preservation.
    Mr. Souder. Following up before I yield to Mr. Abercrombie, 
do you have in Hawaii any kind of variations of like 
conservation easements that Teddy Roosevelt--to try to keep 
some of the historic ranchers there when they weren't doing 
ranching anymore? You do some of the ranching, I believe, at 
Haleakala. You've got an experimental--you've kept one of the 
farming areas where you have poi in there.
    Ms. Parris. Yes, raising of the taro for the poi.
    Mr. Souder. Yeah, taro, but that's a small kind of 
demonstration type area. Do you see potential that with the 
development pressure, some of these open areas you would get 
easement type things to try to work through and do you have 
anything like that?
    Ms. Orlando. We don't have any easements I'm aware of. We 
certainly do in the system. National Historical Reserve is a 
perfect example of that.
    Mr. Case of Hawaii. We're going to hear testimony regarding 
conservation easements from the private perspective.
    Mr. Souder. Mr. Abercrombie.
    Mr. Abercrombie. No.
    Mr. Souder. Let me cover--I want to make sure we--and we'll 
do additional involvement, but, Ms. Bell, could you describe a 
little bit the historic parks you have, the unusual 
relationships you have with native Hawaiians, and the nature of 
the parks you're managing?
    Ms. Bell. I sure can, Chairman Souder. I'm the 
superintendent at Kaloko-Honokohau National Historical Park and 
also Pu`uhonua O Honaunau National Historic Park. And Pu`uhonua 
O Honaunau, Pu`uhonua means place of refuge. That was one of 
the largest places of refuge on the island of Hawaii. And we do 
have at both parks extensive use by the native Hawaiians, 
because those places are still special and sacred. So we work 
very closely with our--the descendents, particularly, of the 
areas, the cultural and--the cultural descendents in the area, 
and, as we do with all of the parks, we allow them access to 
those cultural sites and try to balance management of the parks 
and visitor use with their uses of the park.
    At Pu`uhonua we have begun a resource stewardship program 
with the descendents of the park to make them more responsible 
for those sites that have been part of their families for 
generations. At Kaloko-Honokohau we have an advisory commission 
that we work with made--composed of native Hawaiians, and it's 
congressionally mandated, that support us, particularly with 
the interpretive programs of the park. And at Hawaii Volcanoes 
and Haleakala they have kupuna, or the elders, that provide 
advice on cultural issues occurring in the park. So we do enjoy 
a good relationship with the native Hawaiian communities.
    Mr. Souder. What's the third park?
    Ms. Bell. Pu`ukohola Heiau, which we refer to as the 
independence hall of Hawaii, and very, very important site for 
native Hawaiians. Each year they have a festival there where 
hundreds of Hawaiians throughout Hawaii and even from the 
mainland convene to celebrate Kamehameha the Great.
    Mr. Souder. And do you have it written into the park 
agreements, the native Hawaiian usage? How does that work?
    Ms. Bell. Yes, we do. Some of the--some of us do and there 
are some uses that we're still looking into.
    Mr. Souder. Is it the--I believe it's the refuge park. I 
thought I had it phonetically here.
    Ms. Bell. Pu`uhonua O Honaunau.
    Mr. Souder. My sons went last--is that where the snorkeling 
is, over near that park?
    Mr. Hays. Yes, it is.
    Mr. Souder. Now, of all the places they had tried, they 
said that was the best snorkeling. You said this is one of the 
intentions you have. Is there a concern about the heavy usage 
you have? And that's not actually in the park.
    Ms. Bell. It's not in the park. It's right next door. It's 
State property and managed by the county of Hawaii. It is one 
of the best of two on the west side of the island, and we do 
have a lot of folks come to the park looking for the 
snorkeling, which is next door, but we do--there is a lot of 
visitation to South Kona, to that area, and then of course to 
the park.
    Mr. Souder. How does that affect your parking?
    Ms. Bell. Actually, it--we allow folks to park in the park. 
They pay a park fee. And the county and State have done some 
things with the area to make parking more manageable, but it is 
still a contentious issue with the residents over there.
    Mr. Souder. In what way?
    Ms. Bell. When there is no parking, they will be parking in 
people's driveways or yards or blocking parking, because the 
area--there's a one-lane road into that area and the area is 
just too small, space is just too small.
    Mr. Souder. Have you had----
    Ms. Bell. I'm sorry.
    Mr. Souder. Go ahead.
    Ms. Bell. We have been working with the community, 
Kamehameha Schools, because they own the bulk of the land 
there, to try to alleviate some of it, you know, to have folks 
park further up on the highway or just say, sorry, no parking.
    Mr. Souder. Have you had a flat freeze in your budget, a 
slight increase, or have you reduced the number of employees 
over the last few years?
    Ms. Bell. At Kaloko-Honokohau we have had an increase in 
our budget, particularly to manage the visitor services because 
we built a--two years ago built a visitor contact station 
there. So we did enjoy the increase, at Pu`uhonua, a slight 
increase in our budget to manage personal services, etc. So 
we've been holding our own. One of the wonderful things about 
managing both parks is that I get the flexibility, you know, to 
use employees where I need them.
    Mr. Abercrombie. My wife had the pleasure of going to 
Pu`uhonua Sunday, and I just wanted to emphasize the 
importance, critical importance of personnel at places like 
Pu`uhonua. Some of the other places you can have signs and it's 
a little bit more of the visitor being able to handle himself 
or herself or even their group in a way that's manageable 
without necessarily a lot of contact with individuals. But 
would you agree that Pu`uhonua is unique in the sense that the 
participation of the people who come to visit there with the 
personnel that are there can explain what they're doing, why 
they're doing it, how they're doing it, and who they are is a 
critical element in the visitor experience? And by definition 
it kind of has to stay small. I understand about parking, but 
you cannot handle at Pu`uhonua thousands and thousands of 
people coming through because it would destroy what Pu`uhonua 
is all about. Is that a fair assessment?
    Ms. Bell. That's a fair assessment, and we are--you know, 
we are experiencing marked increase in visitation from the 
ships that are coming into Kailua-Kona, and, you know, the 
ships are in now maybe three times a week and we have busloads 
of visitors to our park. And you're right, it is a unique and 
special place, and we can accommodate so many of our--just so 
much visitors to the park, but the interaction with the 
employees there is so important. And about 60 percent of my 
staff is from the community. They are lineal and cultural 
descendents of that park. So they have a stake in how----
    Mr. Abercrombie. Right. I remember when I first went--when 
it was first open, you could go and have a conversation not 
much different than what we're having right now, but the 
employees now have to have microphones and, you know, 
amplification because they have to deal with 50 people at a 
time or something like that or----
    Ms. Bell. We do have the amphitheater, if you remember, so 
we do schedule talks in the amphitheater. I also impress on my 
employees to do roving interpretations. So we have uniforms out 
in the area. We will not use the amplification, etc., but it is 
getting more and more difficult to make contact with our 
visitors. We call the visitors off of the ships our 20-minute 
visitors. They get off the buses. They have to use the restroom 
because they've come all the way from Kailua-Kona. They need to 
buy a book or postcard to take back, and then they need to see 
the park, and all of that in 20 minutes.
    So that's where we're trying, you know, to get the pre-
education, but most of them have already done their homework. 
We have very educated visitors to our parks. They've done their 
homework. They know about the park, but they want to be there 
because of the specialness of that area. It attracts people 
from around the world.
    Mr. Abercrombie. So are you able to work with the cruise 
ship people to kind of alert them ahead of time, here's what 
you're heading for?
    Mr. Souder. Let me ask a specific question on that, and let 
me ask all three of you if you've done any of this, and that is 
in Alaska you see more rangers on the boats or going into 
Skagway so they can use some of that time in advance?
    Ms. Bell. That's one of the things that--we haven't done 
it, but we're looking into it.
    Mr. Abercrombie. Pardon me. Excuse me, Mr. Chairman, 
because the cruise ship thing is just getting to settle into 
Hawaii in a significant way, because we instituted now inter-
island travel that didn't exist before. And now that this is 
institutionalizing itself, we're going to be dealing with 
thousands of people in the parks. This is a new phenomenon.
    Ms. Bell. Very new. What we have done, we are looking at 
approaching the cruise ship operators to get our rangers on the 
ship. We have--and this is a couple of years ago when they 
first started was actually put a ranger on a ship from Hilo to 
Kona, which worked out really well, but where we're trying to 
focus is tour drivers, the drivers that are on the buses and to 
try to get them to do the orientation before they get to the 
park. And that's working.
    Mr. Souder. Do you give a certificate of training course 
where you conduct the training?
    Ms. Bell. It's been done, yes.
    Ms. Orlando. Likewise, the same. We're looking at about 
7,000 visitors a week now from the cruise ships. It's a huge 
impact, huge impact. And I would say none of us have the 
infrastructure to support that kind of activity. Now, as Geri 
mentioned, the buses--the cruise ships are on a schedule. So 
unfortunately the visitors are not getting the quality 
experience that we would like to offer. And in fact, at Hawaii 
Volcanoes it's even lesser so because the buses cannot go down 
to the eruptionsite. So they can't even see the primary 
resource that they've come to see.
    Mr. Souder. What about at Haleakala?
    Ms. Parris. Unfortunately, we're not getting the educated 
visitors that apparently are going to Geri's park, and that 
does concern me. I've just arrived at Haleakala. One of the 
things I've already been talking about with my staff is that we 
need to make better contact with the cruise ships and educate 
the visitors better about the park. And what makes Haleakala so 
special, and especially the sunrise, is that sacred, that 
spiritual place that it is at that time of day. That sun could 
be rising anywhere right now. They come off the cruise ships 
from the hotels with the bike companies, boom, the sun comes 
up, and they're gone. And we need to find a way to better 
educate by working with the hotels and the cruise ships, and 
that's something that we're going to look into.
    It's going to be difficult to go get with those people the 
night before but yet still have the staff there that morning to 
talk to them when they arrive, but I'd say our visitors aren't 
that educated about the special place that they're visiting, or 
that's not been my experience or that of my staff.
    Mr. Souder. If I could move to my impression of Haleakala 
for a minute. My impression of the bike riders is almost like 
bats coming out of a cave. Are there times when you're at peak 
load as to how many bikes can actually come down that mountain? 
How close are you to that at sunrise?
    Ms. Parris. We don't know what that would be right now. 
Pretty much all day starting before sunrise still the end--till 
the afternoon there are bikes coming down the mountain, and 
right now the park--I wouldn't say we would know what our 
capacity is there, but this commercial use study, commercial 
services plan will take us there.
    Mr. Souder. That's a study that you started.
    Ms. Parris. We're--we've got to get the package approved, 
but we've already written up the package. We'll be doing it 
with some of our fee demo money. And there really are two 
planning processes that run parallel. One will look at 
commercial services, how do we best manage that. And it's not 
just the bikes. It's horses as well. We've got four-foot 
troughs in the trails down in the crater from too much horse 
traffic on those very fragile cinder trails.
    But, OK, so we're doing that. How do we best manage the 
commercial services? We also need to know what is our capacity, 
and we'll do what's called a visitor education resource 
protection study that will say this is how many people this 
small area--this is how many people that this small area can 
maintain without--while maintaining a good visitor experience, 
but also without damaging the resources, which we're seeing 
both cultural and natural. There's over 1,000 people a morning 
at the top of the summit.
    Mr. Souder. Each bicycle company pays you a fee per person, 
is that how it's working now?
    Ms. Parris. They pay an entrance fee. They also--right now 
they are paying $50 a year to get the permit and then are 
paying $200, which is supposed to be going--which comes to the 
park supposedly for us to manage it.
    Mr. Souder. And then are they capped as to how many they 
can bring in a morning?
    Ms. Parris. They can only have 14 riders on one tour, one 
group, but some of them are bringing four or five different 
groups a day.
    Mr. Souder. So they're not restricted under their permit 
how many they can bring? They just have to have certain level 
of management?
    Ms. Parris. Yes, sir.
    Mr. Souder. That's what your study is going to look at.
    Ms. Parris. Effective November 1st we needed to--again, I 
just arrived a couple of months ago, and we needed to somehow 
get a way of handling this. We were in gridlock, which causes a 
problem because we couldn't get emergency vehicles in or out. 
The cruise ships started bringing huge buses. The bike 
companies--I mean, it's just a madhouse up there. And so 
effective November 1st.
    Mr. Souder. Unless a visitor actually sees it, it's hard to 
visualize how much of a madhouse it is.
    Ms. Parris. My second day there, Frank joined me. We kind 
of went up incognito, and I was stunned. I was like, oh, my. 
But we kind of went up incognito to experience it, and it 
happened to be a very busy day.
    Mr. Hays. It was a busy day.
    Ms. Parris. And I didn't even get to see the sunrise 
because just as the sun started coming up two bike companies 
figured out who I was--who we were and came up and started 
asking me questions. But what we implemented is what we call an 
interim operations plan that cut--that limited how many bike 
tours could be up there at sunrise, the size of buses until 2 
hours after sunrise for the cruise ships. You know, like one 
bike company had cut what they were doing by half, and it's a 
way of us to kind of manage it now while we find a more final 
solution. And it's--but we're still turning people back every 
morning that come up in private vehicles. We're--just about 
every morning we're having to say, no, we've reached capacity 
and turning them away.
    Mr. Souder. I want to plunge into something where your 
collection of parks here is at a potential threshold of huge 
problems for the National Park Service. Let me start with the 
bikes. If somebody gets hurt, do they sue you?
    Ms. Parris. We have been sued a lot at Haleakala.
    Mr. Souder. And I'm going to talk about the ponds at Hana 
in a minute, but let's take the bike riders. Clearly some 
people didn't--I mean, it's in some of the materials that this 
is going to be a fast bike ride and good luck. If somebody 
happens to have a heart condition or they're moving at too fast 
a rate or they go off a curb, have you been sued from the bike 
riders at this point?
    Ms. Parris. Not to my knowledge. I'll have to get back with 
you over the last few years.
    Mr. Souder. Do you have a release form they have to sign?
    Ms. Parris. The Park Service does not. That would be with 
the bike company. And there are bike accidents every day. We 
had two broken legs last week, a smashed nose. I mean, my 
rangers every day deal with bike accidents.
    Mr. Souder. I'm going to go off on a tangent, and I 
apologize. Are the fees from the bike companies enough to cover 
your cost to just handle the accidents?
    Ms. Parris. No, sir, they're not. And in fact I've asked 
our regional office to look at what we're charging the bike 
companies and give me a better assessment of what would be a 
fair--what would be a more fair sum. The costs we're getting 
now, both through the horse use and the bikes, aren't allowing 
us to properly manage.
    Mr. Souder. Let's talk about the person who drowned in the 
pools. Almost every guide that I picked up--and I'm a person 
who picks up everything they can get. One of the things they 
say is everybody's encouraged to go to Hana and then go 
swimming in the pools. And it's clearly--there are signs posted 
about the dangers. Part of the problem is you can't see a flash 
food coming because it may be raining up higher and it isn't 
raining down where you are. But clearly this person, in my 
opinion, with a standard warning, should have realized that 
where they were was risky. And there were plenty of signs. You 
just have to be sued in one.
    This is one of the only cases where there's been a lawsuit 
that's been won against the Park Service, and that impact, if 
we can't figure out how to deal with this, is--I don't know how 
anybody is going to be able to go down to Crater Lake. I don't 
know how they're going to be able to go in the Grand Canyon on 
a mule.
    Could you put a little bit of what happened with that 
particular case and maybe just a brief synopsis here and give 
us some history on that case. Because then I want to move into 
the Hawaii Volcanoes case, because this could incredibly 
cripple visitor services in the United States, unless we can 
figure out how to handle the liability.
    Ms. Parris. Again, I'm fairly new there. I don't know how 
they won that case. We are now being sued by another family, a 
husband--or a father and a daughter that were killed as well 
for $35 million, and that suit is going on now. Same thing, in 
a matter of seconds, a 5-foot wall of water took them over 180-
foot falls down some other falls. You know, I was at the top of 
that falls recently. If there had been this much water in 
there, I wouldn't have gone in that pool, much less the average 
water. I just value my life too much to be on slippery rocks 
near a 180-foot drop, but we do have numerous signs. The 
brochures that you're reading are outside--are not Park Service 
brochures.
    Mr. Souder. Right, I understand. The question----
    Ms. Parris. And I think we're going to have to do a better 
job of educating.
    Mr. Souder. And should they be held liable if in fact the 
Park Service has warnings but the brochures and guides don't 
have warnings? This is interesting legal challenge here, 
because if the Park Service puts out the warnings--Ms. Orlando, 
could you talk a little bit about that? You said you have some 
case?
    Ms. Orlando. Well, we had--the one that you and I discussed 
previously, and I think everybody in the room knows it, it 
actually is currently in litigation, so I'm probably not privy 
to talk too much about it, but a similar situation where we 
have a lot of visitors coming in with commercial operators, 
some are signing, you know, liability waivers and others are 
not. In this particular case the woman was left behind, so 
there's multiple suits against both the Park Service, the 
operator, as well as even the cruise ship.
    Mr. Souder. Isn't it, to some degree, just like the bike 
riders on Haleakala, the nature of getting on that bike without 
having done a pretest of how fast you can ride and your 
ability, you are taking some risk. When you walk out on hard 
lava, how many visitors would you say you have on a regular 
basis, not necessarily----
    Ms. Orlando. Oh, every day, every day probably at least a 
half dozen, maybe more. And it can be basic didn't bring the 
water that we told you to bring. Every time I go out there I 
have a backpack full of water because I know I'm going to 
encounter somebody who doesn't have any water and can't make it 
back. I might add, too, in the case of Hawaii Volcanoes, we 
don't allow the bikes either to drive--to go down on their 
bicycle down to the eruptionsite. They have to go in their van 
with their tour group and drive down, but we don't allow 
bicycles to go down that road, also.
    Mr. Souder. Would you describe at Hawaii Volcanoes the--I 
believe certainly in recent times you were the only park to 
lose a visitor center to a volcano. Can you describe some of 
the challenges of trying to work with a site that gives way 
every so often, or the road goes over?
    Ms. Orlando. We lose 30 here, we gain 5 here, it's just, 
you know, we're a park on the move. I guess, you know, we made 
the conscious decision that we would not rebuild the visitor 
center. That was an incredibly significant visitor center. 
Superintendent Bell would attest to that. It was our cultural 
center, largely supported by the Kalapana community, native 
Hawaiian community. So the decision not to rebuild--obviously 
not to rebuild the road. Now we've got buildings down there on 
wheels and that works for us. We use our user fees to staff an 
eruption crew, unlike any other crew that I'm aware of in the 
Park Service. So we've tried to be creative.
    I think that's one of our success stories, is the ability 
to provide safe access to lava flow. We want to be able to do 
that. We made a couple of decisions in the last year that we 
wondered what the backlash would be in terms of closures. The 
bench collapse is a perfect case where 6 months ago my partners 
at USGS advised me that we were in imminent danger out there, 
and I made the decision to close the site. In 6 months I 
received one written complaint about closing the site to ocean 
entry viewing.
    So we've all mentioned that it's education, it's valuing 
your own life, and yes, you are going to get the rogue visitors 
who will do what they want to do. You've probably also heard 
about a couple of folks who have been lost out on lava, but 
actually outside of the park boundary. They were on county 
property on the other side of the park, but people do strange 
things.
    Mr. Souder. What you need is a video-enhanced image of that 
as if there had been tourists there and showing all the people 
falling in. That would be a great visitor education to see at 
the beginning of the film.
    Ms. Orlando. You've seen the film down there. We have the 
film and we've got rangers and we try to approach as many 
people as we can, and frankly, because we have closed off this 
dangerous site, we are able to encounter that many more 
visitors. It's made life so much easier for the rangers down 
there. We can have more one on one. So we do the best we can.
    Ms. Parris. Could I add? It kind of goes back to what you 
were asking about the Hawaiian culture and how we work with 
them. The situation is getting to such at Haleakala that the 
native Hawaiians, pretty blunt with me, saying they don't come 
to the park anymore. There's too many visitors trampling their 
sacred sites. In fact, I was telling--sharing with my 
colleagues here, I met with one of the kupuna groups on Tuesday 
and, boy, they beat me up pretty bad about how they just refuse 
to come up there anymore. And so we've got to find that balance 
between visitors--visitor experience and protecting the site, 
but also allowing that traditional use.
    Mr. Souder. We need to get to the second panel, so if you 
could comment on one other thing that seems unusual. I know at 
Haleakala and with Geological Service at Hawaii Volcanoes and 
maybe you could give us kind of an overview of your other 
parks, you have a lot more scientific land usage inside your 
park. It's kind of like a different type of in-holding. I also 
wanted to ask you that question. Do you have much in-holding in 
the Hawaii park system? Are there landowners inside of the 
Federal Government land holdings?
    Ms. Parris. Not at all.
    Mr. Hays. No.
    Mr. Souder. So it's mostly the Federal Government 
observation towers up at the top, the Geological Service? If 
you could give us some idea, do you have a chart there.
    Ms. Orlando. You just happened to see me pull that out. 
Just specific to Hawaii Volcanoes, and I'm not sure if I 
provided this to you before, but we're only--the National Park 
Service and Hawaii Volcanoes is only 90 percent of the total 
work force in the park. So we've broken that out. In terms of 
our cooperators, our public-private concessionaires, SCA, other 
partners, volunteers. We had 42,000 volunteer hours last year. 
That's the equivalent of 26 people. We could not open the doors 
without those volunteers.
    Mr. Souder. Let me do one other thing here, and we'll ask 
more specific data. Like I said, this will give us in effect--
when we print the hearing book, we try to figure out how to get 
those in the key hands, but also up on our Web site where 
individuals can download, and we'll want to fill out printed 
materials, much more specific data, what percentage you get 
from fees and this type of stuff. So in effect we'll have a 
Hawaii book when we're done.
    But as we look to the 100-year birthday of the park, what 
kind of vision are we going to have for the Park Service? Part 
of it is we clearly have backlog. Part of focusing on the 
backlog means we haven't kept up with, for lack of a better 
term, the front log. In other words, we're seeing a decline of 
visibility of actual rangers, how we deal with pension, 
Homeland Security, other types of questions like that. And then 
this huge question, we're dealing with the backlog, keeping 
personnel funding. What about opportunities and holes in the 
Park Service that we need to fill in?
    I was at Angel Island earlier this week. As we look at 
Native American sites, what do we have there? Land type 
opportunities to purchase. Once they're gone, they're gone. And 
then you can't worry about what kind of rangers you're going to 
have at the visitor center, because you don't have the land. 
It's already built over.
    As you see us trying to capture the public imagination--and 
all of you have probably served at multiple parks in Hawaii. 
Why don't we start with Mr. Hays and go to Ms. Bell, Ms. 
Orlando, and Ms. Parris. This is your chance to say, here are 
some ideas on how we can capture the public imagination, what 
should we be looking at both executive-wise, congressional-wise 
as we move toward the 90th next year, 100th. Mission 66 didn't 
start in the anniversary year. It started way ahead.
    Mr. Hays. Well, you know, parks are associated with 
superlatives. I mean, we talked about crown jewels already 
today. They've been called America's best idea. I've read that 
they've been called the sincerest expression of democracy. They 
create history for Americans. They create knowledge about 
natural ecosystems and so forth for Americans, and I would hope 
that anything we do will ensure that for the next 100 years or 
200 years that those kind of adjectives are used about the 
National Park system.
    And some of the approaches and considerations and issues to 
think about as we move into 2016, our anniversary coming up, I 
think maintaining relevancy with our changing demographics in 
the country is particularly crucial. You know, we need to make 
sure that we're reaching out to the amazingly diverse America 
that we're becoming. I had the opportunity to be superintendent 
at Manzanar before my current position, which was a Japanese-
American internment camp, and I never thought before I got to 
Manzanar that I would have the opportunity to hear a Buddhist 
priest thanking the National Park Service for taking care of a 
significant site like Manama.
    So I think you look at the sites that are saved that may be 
relevant to other cultures, but also the Park Service's efforts 
to reach out and talk to and encourage other ethnicities, other 
than the typical visitor to National Parks, is a critical thing 
to do. And I think our work force ought to reflect that 
diversity in America, and the Park Service has been working 
hard over the last several years to increase diversity. Because 
a lot of folks, frankly, before this effort looked a lot like 
me, balding white guy with a beard. So I think it's a nice, 
appropriate thing to make sure that our work force reflects the 
diversity--the great diversity of America.
    You know, I think engaging the public, and that kind of 
ties into the topography issue. I think most parks already have 
been doing it, but this is a little more formal process to 
really get out there and do ground-up public engagements about 
how parks are managed, and the more we can do to get parks 
involved--or people involved in the management of parks, I 
think that's crucial. And, you know, it would be great to see 
the National Park Service as seen as the best in doing 
sustainable design, the best in resource management programs, 
and invasive species programs.
    I was out at Hanauma Bay, which is just Diamond Head--or 
east of Honolulu here and the community visitor center out 
there--it's the city and county of Honolulu that runs the 
visitor center, and I was impressed with the design. It's very 
sustainable yield. It blended into the landscape. They have 
wind generating and solar-powered lights in the entire parking 
lot, and it's just great to see the park system is really 
actively pursuing sustainable design. It's a great idea for the 
Park Service to make sure they're a leader in sustainable 
design.
    Mr. Souder. Our other goal on Mission 66 was to maximize as 
much usage of as much energy as possible by creating big, high 
ceilings.
    Mr. Hays. Exactly. So maybe now those are cultural features 
that we need to preserve in many cases, so, yeah, I think being 
a leader in sustainable design would be great. And I think 
those are key things, from my perspective, that should be 
considered.
    Mr. Souder. Thank you. Ms. Bell.
    Ms. Bell. I'm going to ditto Mr. Hays' comments. He used 
the word relevant several times, and what I'd like to see is 
that the parks that I manage in the National Park Service still 
are relevant as special places to the American people, and 
particularly for me as a native Hawaiian and a manager of two 
cultural parks, that it remain relevant to the native Hawaiian 
community.
    Mr. Souder. Ms. Orlando.
    Ms. Orlando. We really didn't discuss this beforehand, but 
my big word was the R word. You know, on a personal level, I 
worked--this is my 36th--I'm going into year 36. Unlike most of 
my children who will probably have multiple careers in their 
lifetime, probably yours as well, it's been my only career, 
with the Park Service. I've worked at four parks, two regional 
offices, and the National office. And I do have to say, as Mr. 
Hays alluded to, that growing up in the Park Service, 20 years 
ago you wouldn't have seen three females sitting up here in a 
senior management position.
    So relevancy is incredibly important, I think, to a 
generation in the next century that did not grow up with the 
National Park ideal. So we are challenged, and in Hawaii even 
more so because we want to remain relevant and important to the 
native Hawaiian culture, but broadly--more broadly is how do we 
connect our places to the public in a way that they understand 
that we are managing for their benefit, and I think that's 
really critical in getting that story out there.
    I think we need to manage smarter. I think we need to look 
at leveraging resources. And I think also, as Frank alluded to, 
sustainability, leading by example, and it's difficult to lead 
by example sometimes when your resources are a little thin.
    Mr. Souder. Ms. Parris.
    Ms. Parris. Well, ditto the relevancy. Anyway, you know, 
I've been doing this for 30 years, and like Ms. Orlando, this 
is the only job I've ever known. Haleakala is my 17th park that 
I've worked in and seventh one I've been superintendent of. And 
visiting National Parks is what I do on my own time as well. 
And I think over the years our--my hope for our 100th 
anniversary is that we've gone back to what was the primary 
goal when I started with the National Park Service, and that 
was the visitor experience, uniforms on the ground talking to 
people. And as I've traveled around other National Parks over 
the years, every time I go you see less and less of Park 
Service employees. And I think that does diminish the visitor 
experience less and less. And it's not all about money. It's 
just as we--there's just a lot of things we're having to deal 
with as managers and employees now that takes us away from that 
front desk, that front line, that roving out on the trail.
    You know, the general public, everybody loves the National 
Park Service, but they really don't understand what we are and 
what our mission is. And that's always puzzled me in my career. 
I remember back when we had the closures a couple of years ago, 
and I'm standing out there with a news reporter at one of the 
parks I was superintendent of in western Pennsylvania. They 
pulled up and they were like, well, darn, why can't we go in? I 
was like, well, you're aware of the Federal closures? Yeah, but 
what's that got to do with you? You know, what does the term 
national mean to you?
    So I don't know how we attack that, but I think we need to 
focus and get back to visitor experience, because in preserving 
and protecting our resources, knowledgeable visitors helps make 
our job easier. And I've always taken a great amount of pride 
in that my job has been to preserve and protect our Nation's 
heritage, and that's what I take seriously, as I know my 
colleagues do.
    So that's my hope for 2016, is that we stop and look, and a 
lot of the things we do are important, but it's all about 
preserving and protecting resource and educating visitors on 
what we do and why there's a need.
    Ms. Orlando. I just wanted to add one other thing, that I 
think we have an opportunity in Hawaii--we were the 12th 
National Park established, and I say we collectively because 
Hawaii Volcanoes and Haleakala were established as one park 
before the National Park system existed. So we have an 
opportunity at the local level to walk our talk and to prepare 
our parks for that event as well. So I would just remind 
everyone that there were 12 National Parks established before 
the Park Service, and not to forget them in 2016 either.
    Mr. Souder. Mr. Case, any final comments?
    Mr. Case of Hawaii. I guess, first of all, on that 
question, I agree with what you just said. I guess that is your 
mission, to preserve the heritage of our country. And I think 
looking at what--chairman, I think one of the things that I 
think we're all focused on is Hawaii is unique in so many ways, 
as are many parts of our country, but here in Hawaii we have 
certainly a unique ecology, geology, unique scenery, unique 
history, unique culture. And I think the National Park system 
is absolutely integral to preserving that uniqueness about 
Hawaii. As one of the major components of that native Hawaiian 
culture, it's under threat. Hawaii, in general, is under 
threat, and I think the National Parks system is just an 
absolutely indispensable part of our own effort to preserve our 
unique qualities.
    If I could just--for the record, this would just be--I want 
to make sure I ask the right question. I made opening remarks 
to outdated management plans. Is there some way of asking so 
that the record is clear on how old the management plans are 
here?
    Mr. Hays. Sure. We can provide that.
    Mr. Souder. Do you know off the top of your head when your 
last management plan was?
    Ms. Bell. My management plan was written for Kaloko-
Honokohau in 1996.
    Ms. Orlando. 1970's, one of the older ones.
    Ms. Parris. Ten years old, very outdated. Doesn't----
    Ms. Orlando. Lucky you.
    Ms. Parris. There's been a lot of land added.
    Mr. Hays. We'll get that.
    Mr. Souder. And whether you're doing current analysis.
    Mr. Hays. I'll get you the status, because there's one for 
Hawaii Volcanoes is online.
    Ms. Parris. I hope to get one online, too.
    Mr. Souder. Are you done?
    Mr. Case of Hawaii. Yes.
    Mr. Souder. One challenge that I want to get out that I've 
been kind of ramping up as I go here is that very seldom do I 
ever at these hearings get out of the Park Service the biggest 
single change that's happened in the United States, and it's 
partly the nature of your business that you're outdoors people 
and you're there, and that is the explosion of the Internet in 
the education system and how people are experiencing things.
    Park Services Internet has improved. I know Dick Ramey had 
worked for a period of years and many others on how to do 
education stuff, but the truth is that you're the biggest 
repository of science, you probably have more art than the 
National art museums combined inside the Park Service, and most 
people aren't going to see it. They may get to their regional 
park at one time or another. The question is as we move--we're 
looking at 2016 and the next 100 years after that. Much of the 
experience is going to be you're going to be able to get 3-D 
multi-sensory experiences in your head or around you through 
your television and other types of things, how can we 
interconnect this with the tremendous resources we have in the 
Park Service?
    Everybody's having to adjust to it. People on the ground 
have to decide whether they're going to go to tapes or rangers 
and how you handle even the quantity on the ground. People are 
looking at local and regional parks as the next generation 
needs hiking and walking places near them. My experience with 
the Park Service is that you're very good, because each 
superintendent is told they have to make peace with the people 
around it that have somewhat different vision than the majority 
of the taxpayers who are paying for the park, such as you're 
used to accommodating them so local schools get in.
    But, for example, through a fluke, both a personal contact 
and my son's contact, my daughter in third grade in Indiana was 
teaching bass as part of a science course. So she hooked with 
Carlsbad on bass and was able to do a conference call of 
materials that made that experience so much richer. It 
shouldn't just be that the people who are in the immediate area 
that happen to have a visit from a local ranger can tap into 
the natural resources.
    We've got to think big here. How do we take and build the 
support and extend the support? And that's one way we're going 
to reach lower income, diverse members of the population to get 
them exposed to it in their classrooms, then whatever their 
local urban park is, and then a regional park. And then to 
visit the great natural sites will always be more inclined 
toward middle class and older people, as they get more income 
and more ability to travel, unless you're geographical. And I 
want you all to think about and if you want to add anything to 
that of what you've done in those areas.
    Ms. Orlando. I would just say we're just embarking on it. 
The National Park Foundation has a partnership with Ball State 
University and Best Buy, I think, is the corporate sponsor of 
an electronic classroom. Grand Canyon I think completed it a 
couple years ago, and they are receiving 25 million kids on 
that electronic classroom. We're working on, I think, Carlsbad 
this year. They do one National Park a year, and Hawaii 
Volcanoes is scheduled for 2007. So we can expect, as you say, 
to see more of that kind of a contact made.
    Mr. Souder. It's a transformation, even in our offices. We 
get 300, 400 letters, calls, and direct emails a week, and 
that's held pretty steady in my 10 years in the House and the 
history of our congressional district. We did a check, as we've 
upgraded our home page, I think we had 2 million hits in June. 
We had 120,000 being there for 2\1/2\ minutes or more. And when 
you look at those numbers, it just staggers the traditional 
contacts you have. And the world is changing underneath us and 
we've got to figure out how to do that too.
    I also want to make one more comment. When we were at 
Lassen last summer and this summer, that it shows you what you 
can see in our National Park Service. Because Lassen came into 
the Park Service when it had been like Mount St. Helens, Hawaii 
Volcanoes. Now you see an old park that in effect we're seeing 
how it's rehabilitating itself in volcanoes. You can go to 
Crater Lake, where I was this summer in my northwest tour of 
the parks, Crater Lake is a sunken volcano. Mount St. Helens is 
still smoking. You've got lava. And in fact you can do--but it 
is--the question is when can you go to your site and say I'm 
going to research volcanoes. I can see this whole thing. I can 
watch a site that's erupted, that's rebuilding itself. I can go 
a little bit to the north and see a sunken lake, see one 
smoking, see one with lava inside the same Park Service. We're 
thinking in terms of Hispanic tours, if we could get the Asian 
culture subgroup. How could we do this in other types of----
    Ms. Parris. There was actually an all American highway, I 
don't know if you saw the signs when you were in the park, but 
there's a scenic byway, Federal scenic byway that takes you 
from Lassen Volcano all the way up to Crater Lake, and it was 
being extended to Mount St. Helens. It includes private 
organizations, the U.S. Forest Service, the National Park 
Service, local communities working together to tell that story 
kind of--it's along a highway, because they connect, but it's--
--
    Mr. Souder. And like what finally Lewis and Clark, after--
--
    Ms. Parris. Exactly.
    Mr. Souder [continuing]. Ten years of hounding on them, as 
we headed up, the last 2 years they finally started organizing 
Lewis and Clark. But often these things are inside a region, 
when in fact it's a stove pipe, much like we have to do in the 
Department of Homeland Security, about across the region. It's 
a start to get it in the regions. It's a start on the home 
pages. We're getting much more live cam type things, and 
there's definitely been improvement, but it's kind of like how 
can we big picture this.
    Ms. Orlando. One other thing on that, we can also do it 
among--between agencies, and we have an exchange with the 
Forest Service at Mount St. Helens. We bring an interpreter 
over every summer and we send one of ours there, and what a 
wealth of experience and knowledge they bring back to their job 
and their agency. So we are trying to make that leap across 
agency boundaries.
    Mr. Hays. Thank you.
    Mr. Souder. Thank you very much for your testimony. 
Appreciate the patience. Second panel, if you could come 
forward.
    [Recess.]
    Mr. Souder. If you could just give us your name, please.
    Mr. Saunders. It's Saunders, S-A-U-N-D-E-R-S. First name is 
Ansil, better known as Sandy.
    Mr. Souder. Do you want to spell your first name so she has 
it.
    Mr. Saunders. Ansil, A-N-S-I-L, Saunders, S-A-U-N-D-E-R-S.
    Mr. Souder. OK, I know each of you were here at the 
beginning, so let me go ahead and swear all witnesses. Please 
raise your right hand.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. We'll start with Craig Obey. We 
appreciate your leadership in the NPCA and working with us in 
the whole hearing process and giving us an overview as we go 
into each of these hearings, and just so we have--in the 
interest of full disclosure, we all know your dad. And he's a 
great leader in Congress, and appreciate your being here.

STATEMENTS OF CRAIG OBEY, VICE PRESIDENT, GOVERNMENT AFFAIRS OF 
  THE NATIONAL PARKS CONSERVATION ASSOCIATION; SUZANNE CASE, 
EXECUTIVE DIRECTOR OF THE NATURE CONSERVANCY IN HAWAII; GEORGE 
  SULLIVAN, CHAIRMAN OF THE ARIZONA MEMORIAL ASSOCIATION; AND 
 CASEY JARMAN, BOARD MEMBER OF THE FRIENDS OF HAWAII VOLCANOES 
                         NATIONAL PARK

                    STATEMENT OF CRAIG OBEY

    Mr. Obey. Thank you very much. I appreciate the 
opportunity. As you know, I'm vice president of government 
affairs for the National Parks Conservation Association. Since 
1919, NPCA has been the nonpartisan voice for the National 
Parks throughout the country to protect parks for present and 
future generations. On behalf of our 300,000 members, I want to 
thank you, Mr. Chairman, for holding this, which is actually 
the seventh of your hearings, including the one held in D.C., 
and those hearings are really unprecedented as far as we can 
tell in the history of the park system, very important.
    Despite their place in society as the birthright of every 
American, our National Parks have been neglected by too many 
successive Congresses and administrations. We merely pay lip 
service to their trust and responsibility for this remarkable 
gift. This malignant neglect places at risk much of America's 
birthright and makes me question whether my son and daughter 
will have potential for the kind of experience of the National 
Parks that I took for granted when I was growing up.
    Hawaii is a spectacular place, with some of our Nation's 
most compelling national treasures. Hawaii's seven National 
Parks include national wonders like Haleakala and Hawaii 
Volcanoes that inspire and lift the soul and the spirit. They 
preserve examples of our culture, places like Kaloko-Honokohau 
and Pu`uhonua O Honaunau historic sites. And they commemorate 
the legacy of those who gave their lives for our country at the 
USS Memorial--Arizona Memorial, Pearl Harbor.
    Despite their distance from the mainland, Hawaii's National 
Parks face some of the same challenges as their mainland 
counterparts. Parks have faced many years of budgetary 
bloodletting that led to a system-wide operating shortfall of 
$600 million and a maintenance backlog estimated at $4.5 to 
$9.7 billion. Imagine running a business on two-thirds of what 
you need every year to operate with your physical plant in dire 
need of repair. You wouldn't be around very long.
    Far off events are also affecting Hawaii National Parks. 
For example, a long overdue joint curatorial facility for the 
three National Parks on the west side of the Big Island is 
being delayed from 2008 to 2010 because of Hurricane Katrina. 
In light of the many challenges that they face, people in the 
Park Service deserve enormous credit for holding our National 
legacy together, given the difficult challenges they have.
    Hawaii's first addition into the National Park system was 
Hawaii Volcanoes, including Haleakala. It's a constantly 
changing place, which was demonstrated by the bench collapse 
yesterday, presenting unique challenges to the park. This 
incredible place has become the poster child for one of the 
increasingly widespread challenges for many of our National 
Parks, invasive species, and has suffered from years of 
neglect. The park has produced important results in removing 
some exotics, goats, and feral pigs. However, fences used to 
keep those animals out are expensive. They cost $30,000 a mile, 
and that's money very difficult to come by in the operation 
budgets for the parks.
    They also face significant challenges with a variety of 
other animals and plants. For one example, fountain grass, 
which they've done a pretty good job of going after over the 
last 15 years in the park. But now with the Kahuku Ranchland 
that was just added, which is an exciting addition to the park, 
which really has opened up places that have been closed to the 
public for 100 years. The park has a challenge of now 
eradicating fountain grass in that area, as well as other 
exotics. And they've done a very good job creating partnerships 
to help accomplish some of these things, but in a park that has 
a $5 million operation shortfall, 37 percent of the park's 
actual budgetary needs, it's a challenge.
    It's also why aggressive funding of the National Resource 
Challenge both through appropriations and through your National 
Parks Centennial Act is so important, as well as initiatives 
like Mr. Case's and Senator Akaka's bill.
    Another manifestation of the funding strain at Hawaii 
Volcanoes is interpretation. The park recently opened a 
terrific new visitor center with interpretive exhibits. You 
venture beyond the visitor and you see interpretive signs that 
appear to be 25 or 30 years old. Many of them are difficult to 
read because they're so weather-beaten. The park is doing its 
best with its resources. With the resources as they stand now, 
it's likely to take years before the park can even replace the 
signs.
    Hawaii's National Parks face many additional challenges. 
Overcrowding at Haleakala, the bike situation, as you already 
discussed this morning, and the challenges facing the Arizona, 
which are well documented and I won't belabor you with. If you 
visit Kaloko-Honokohau, you'll see what's essentially an urban 
park, surrounded by development, that really appears to just be 
getting off the ground, despite having been created in 1978. 
And invasive plants in the park there challenge not only the 
natural environment, but are wreaking havoc on many 
archeological sites, and they make interpretation extremely 
difficult and non-existent. The past couple fiscal years the 
park has received funds to combat some of these problems and 
has made some strides forward, but those funds are really a 
drop in the bucket compared to what we need.
    Mr. Chairman, in summary, the National Parks throughout the 
Nation, Hawaii's National Parks, like them, are feeling the 
strain of multiple responsibilities, unfunded mandates, and 
insufficient budgets. This places the long-term health of our 
parks and the experience of visitors to them at risk. Now is 
the time to seize the opportunity presented by the centennial, 
as you've discussed, to really renew our commitment to these 
treasures. We don't have this kind of opportunity every day. 
NPCA recently released a report describing the 10 reasons to 
reinvest in America's park heritage, but really we need only 
one, and that's so we can protect this legacy for future 
generations so our kids and their kids can see them and 
experience them. Thank you very much.
    [The prepared statement of Mr. Obey follows:]

    [GRAPHIC] [TIFF OMITTED] T7922.007
    
    [GRAPHIC] [TIFF OMITTED] T7922.008
    
    [GRAPHIC] [TIFF OMITTED] T7922.009
    
    [GRAPHIC] [TIFF OMITTED] T7922.010
    
    [GRAPHIC] [TIFF OMITTED] T7922.011
    
    [GRAPHIC] [TIFF OMITTED] T7922.012
    
    [GRAPHIC] [TIFF OMITTED] T7922.013
    
    [GRAPHIC] [TIFF OMITTED] T7922.014
    
    [GRAPHIC] [TIFF OMITTED] T7922.015
    
    [GRAPHIC] [TIFF OMITTED] T7922.016
    
    [GRAPHIC] [TIFF OMITTED] T7922.017
    
    [GRAPHIC] [TIFF OMITTED] T7922.018
    
    [GRAPHIC] [TIFF OMITTED] T7922.019
    
    Mr. Souder. Thank you very much. Our next witness is Ms. 
Suzanne Case, executive director of the Nature Conservancy, and 
also in the interest of disclosure, do you know anybody on this 
panel?
    Ms. Case. My brother.
    Mr. Souder. I heard wonderful things about you, and I 
assumed it was from a non-partisan source.
    Mr. Case of Hawaii. It was non-partisan.
    Mr. Souder. Thank you very much for coming, as well as the 
leadership of the Nature Conservancy both here and across the 
country.

                   STATEMENT OF SUZANNE CASE

    Ms. Case. Thank you, Congressman Souder, and thank you for 
holding this hearing. Thank you also, Congressman Abercrombie 
and Congressman Case, for joining us today. I'm Suzanne Case. 
I'm the executive director of the Nature Conservancy's Hawaii 
Chapter. And as you know, we have uniquely valuable National 
Parks here in Hawaii protecting our Nation's natural and 
cultural heritage. And so we greatly appreciate your support in 
Congress to assure that park needs are met.
    Along with the privilege of enjoying our magnificent 
natural environment, we humans bear a tremendous stewardship 
responsibility for the impact we've made on it. Our experience 
as a conservation land manager for over 25 years in Hawaii has 
shown that the single greatest threat is survival of Hawaii's 
natural environment, including areas under National Park 
jurisdiction is the damage done by invasive, non-native species 
that are introduced either intentionally or inadvertently by 
humans. Virtually all conservation field work in Hawaii is 
directly connected with invasive species, whether it's feral 
animals, like pigs and goats or sheep, or overgrazed native 
habitat in the Kahuku section of Hawaii Volcanoes National 
Park, or super weeds like Miconia. And some funding and policy 
measures pending in Congress can help address these threats.
    Regarding control of the invasive species already in 
Hawaii, the Natural Resources Protection Cooperative Agreement 
Act will resolve a longstanding problem by providing the Park 
Service with the needed authority to expend resources and work 
with partners to control threats to National Parks from 
invasive species that are still outside park boundaries. The 
Public Land Protection and Conservation Act creates an 
excellent framework of Federal granting authority to assist 
States with assessment and response to invasive species and to 
foster partnerships to control pests on and adjacent to Federal 
land.
    But while controlling pests already in our parks is 
necessarily a top priority, by far the most effective and cost-
effective way to deal with invasive species threats is to 
prevent their introduction in the first place. Now, invasive 
species prevention such as inspection and quarantine activities 
at ports of entries in Hawaii may not be directly within the 
jurisdiction of the subcommittee, but it is an area of critical 
importance to any entity trying to manage invasive species 
threats, including our National Parks.
    And as a result of--directly from National Park Service 
leadership, there's a model for prevention currently being 
realized at Kahului Airport on the island of Maui. Recently 
retired Haleakala Superintendent Don Reeser early on insisted 
on preventing new pest introductions that might result from a 
proposed airport runway extension, and the end result of a 
collaborative process will be more inspectors and a modern 
enclosed inspection facility at the airport.
    But formidable challenges remain to developing a truly 
effective prevention system, and these challenges go right up 
to including the U.S. Constitution and the free market 
principles on which this Nation is founded. For centuries this 
country has promoted the important ideals of free trade and 
open borders to Congress. The Constitution's Commerce and 
Supremacy Clauses together with specific preemption provisions 
of the Federal Plant Protection Act prevent States from being 
more restrictive than the Federal Government in regulating the 
movement of plants and plant products in foreign and interstate 
commerce.
    The State of Hawaii runs directly into this 
Federalpreemption if it wishes to implement stricter State 
quarantine regulations in order to protect the islands from 
invasive species introduction. This can involve a long and 
laborious process of securing restrictions on a species-by-
species basis from the Secretary of Agriculture, and to address 
this problem the Hawaii Invasive Species Prevention Act, H.R. 
3468, has been introduced in the House. This bill would 
establish an expedited review process for the State of Hawaii 
to impose greater restrictions on the movement of invasive 
species. It would allow the State to impose limited emergency 
restrictions on invasive species and mandate the Federal 
quarantine to protect Hawaii from new pest introductions, and 
allow for Federal enforcement of State quarantine laws. These 
provisions will help greatly in decreasing the risk of new 
invasive species threats to our National Parks.
    Thank you again for the opportunity to comment on these 
issues which are critical to our National Parks, and I would 
suggest that perhaps invasive species prevention systems and 
sufficient resources for control could be a priority goal for 
the 2016 National Park Service.
    [The prepared statement of Ms. Case follows:]

    [GRAPHIC] [TIFF OMITTED] T7922.020
    
    [GRAPHIC] [TIFF OMITTED] T7922.021
    
    [GRAPHIC] [TIFF OMITTED] T7922.022
    
    [GRAPHIC] [TIFF OMITTED] T7922.023
    
    [GRAPHIC] [TIFF OMITTED] T7922.024
    
    Mr. Souder. Thank you.
    Mr. Sullivan.

                  STATEMENT OF GEORGE SULLIVAN

    Mr. Sullivan. Thank you, Mr. Chairman, and Congressman Case 
and Congress Abercrombie, thank you for joining. My name is 
George Sullivan. I'm the chairman of the Arizona Memorial 
Museum Association. We've been the cooperating association with 
the National Park Service for the USS Arizona Memorial since 
1979. We're non-profit, and our primary reason for existence is 
to assist the National Park Service in education and 
interpretation. We think we do this very well.
    Just a couple of examples that I would like to take the 
time to mention, because similar things came up earlier. We 
have a witness to history program that we're doing with the 
schools on the mainland. We do a video teleconference into 
those schools. They come up with a schedule and set up video 
teleconferencing from here to the school. The Navy has been 
exceptionally cooperative in letting us use their equipment. We 
have a Pearl Harbor survivor participate, historian at the park 
participates. The children are able to get a virtual tour of 
Pearl Harbor, and then they're further able to ask questions of 
a survivor. Both the children and the survivors love it.
    Last year and the year before last we ran a teacher's 
workshop. We got a grant from the National Endowments for the 
Humanities that provided us the money to bring out 100 
teachers. We did this in conjunction with the East West Center. 
Teachers spent a week in training, getting educated on Pearl 
Harbor. The events took place on December 7th throughout the 
entire island. Last year we conducted a similar workshop for 26 
teachers from the mainland and we included 6 teachers from 
Japan to join that teacher's workshop. The first time we ever 
did that.
    Mr. Souder. Can I ask you a quick question?
    Mr. Sullivan. Sure.
    Mr. Souder. Have you ever looked at hooking that up online 
so other teachers around the country could participate in the 
workshop even if they weren't part of it?
    Mr. Sullivan. Yes, we have had multiple hook-ups on that 
with other schools. We hope to be able to do that on an online 
basis and get away from the video teleconferencing, because 
that is expensive and not all schools have it, so we're working 
toward that.
    Mr. Souder. Thank you.
    Mr. Sullivan. The teacher's workshop last year was very 
effective and the teachers from Japan enjoyed it very much. 
This year the National Endowment for the Humanities just 
awarded us another grant. We'll be able to bring out 40 
teachers for two sessions for 2 weeks in August, and we'll also 
ask the Japanese--our contacts in Japan to see if we can get 
some Japanese teachers here as well. Recently, in fact, the day 
before yesterday, I met with the American Consul General--
excuse me, the Australian Consul General and we discussed 
interface with the museums in Australia, and we're starting to 
work there with the Australians because they have a common 
interest in the same history that we have, Pacific war.
    Briefly I'll mention about the visitor center, the new 
visitor center. First, I'd like to mention the one we have 
today. It was originally envisioned by my colleague here, Mr. 
Sandy Saunders, and he was the one that pushed it through back 
in the 1970s. We had lines at that time and Sandy figured the 
best way to overcome those lines was to build a visitor center, 
and he got the help of many of his colleagues in the State to 
do that. Today we have the same lines because at that time we 
were looking at 750,000 visitors and now we're looking at 1.5 
million. So the new visitor center will be a much larger 
footprint on the property than exists today, and we hope to be 
able to accommodate many more visitors.
    We'll also look at other methods of reducing the lines, 
such as advanced ticketing, which was mentioned earlier. We'll 
go on line with that system as soon as the National Park 
Service is able to get that system worked out and we're waiting 
for that.
    We also have to overcome the perception of people coming--
people believing that they have to be there at 7 a.m. to get a 
ticket, or earlier, as the case may be. So we would like--and I 
suggested to the superintendent that we open earlier, like at 
6:30 a.m., to reduce the lines outside, because we can 
accommodate them inside for the people who have bought. And 
they are going to go to that starting January 2nd. They'll be 
going to what they call summer hours all year long, open the 
park actually at 7:45--the first movie will be at 7:45. The 
park will still open at 7:30.
    So we're doing a lot of things to accommodate the visitor 
in our planning for the new visitor center, and we think we can 
reduce the lines and make the visitor experience much better. 
Thank you for giving me the time to talk about this.
    Mr. Souder. Thank you. Ms. Jarman.

                   STATEMENT OF CASEY JARMAN

    Ms. Jarman. Good morning, Mr. Chairman, Congressman 
Abercrombie, Congressman Case. My name is Casey Jarman, and I'm 
a board member of the Friends of Hawaii Volcanoes National 
Park. And I'm starting my second year as the member of this 
board. We are a community-based organization whose mission is 
to support and promote restoration, protection, understanding, 
and appreciation of Hawaii Volcanoes National Park. We support 
the park in three important ways: philanthropy to augment park 
resources, offering educational programs to supplement the 
programs offered by the park, and providing volunteers for park 
projects.
    In our written testimony I've listed some of our recent 
activities, so I won't detail them today. If you'd like a 
complete listing, we can provide them sometime in the future 
for the record as well. I'd like to take my time here today to 
mention two key issues that were raised in our testimony. 
First, the Friends has been working closely with the park in 
providing the public opportunities to visit the new Kahuku 
District addition to the park. Because operating funds were not 
included with the $22 million appropriations to buy the Kahuku 
District addition, the park can offer very limited public 
access to this new area of the park, and this is--if you--I 
don't know if you've had a chance to visit there, but this is 
an incredibly, incredibly special place.
    We fervently urge Congress to fund improvements for the 
Kahuku District so the public can have access to this 
incredible historical, natural, and cultural area in the park 
that Congress was so wise to put our tax dollars into funding 
and granting for us.
    Second, our Friends group has recently moved into the 
philanthropic arena and plans on increasing those efforts in 
the future. We now have a development committee which is 
currently putting together a fundraising plan for the next 5 
years that includes, among other things, trying to approach 
major--potential major donors for gifts. We believe the job 
will be easier when the park formulates its new general 
management plan. As was mentioned earlier, the park is now 
operating under a 30-year-old master plan.
    And as you also saw from the newspaper article, we just 
lost 30 acres of the park. This is a very dynamic park. We now 
have a new addition, and updating the management plan, I think, 
is a critical project for the park. And having an updated 
management plan, I think, will help us as we go out and 
approach major donors to let them know what the vision of the 
park is for the next 50 years and to help them see how they can 
enable the park to reach that vision.
    And with relief, I make a short personal statement outside 
of my hat as a member of the board. I live a mile from Hawaii 
Volcanoes National Park. I consider myself one of the most 
fortunate people in the world to live there, and for many of us 
who live there we live in the same ecosystem that the park is. 
I have the same forest around my house as there is in Hawaii 
Volcanoes National Park, but yet I go into the park a couple 
times a week. It's just the most amazing, incredible place. I 
send people there all the time. When visitors come, I don't 
just say, go to the park. I say, let me take you into the park, 
and that's how important it is.
    And I think for a lot of people who live there and for our 
visitors, it's not just a natural place, historic place, 
cultural place. It's really a place of the heart. It's--I don't 
know, I guess you have to have been there to describe it. But 
this is--everybody used the word crown jewels, and I used that 
in my testimony, but for lack of a better word to describe what 
Hawaii Volcanoes National Park is, and that's one of the 
reasons I'm on the Friends board, because that park means so 
much to me.
    And finally, we'd like to thank you, Mr. Chairman, and 
other Members of Congress who have been advocates for the 
National Park system, including Hawaii Volcanoes National Park. 
Thank you, also, for the opportunity to testify this morning, 
and I'll be happy to answer any questions or provide any 
additional information you might need. Thank you.
    [The prepared statement of Ms. Jarman follows:]

    [GRAPHIC] [TIFF OMITTED] T7922.025
    
    [GRAPHIC] [TIFF OMITTED] T7922.026
    
    Mr. Souder. I know I have lots of questions, but I'm going 
to--I know Congressman Abercrombie and Congressman Case are 
feeling time pressures here, and I hope you all realize that 
getting three Members of Congress in one place for more than 10 
minutes does not happen. Our staff have electric shock sticks, 
and if we're in one place more than 5 minutes, we're gone. So I 
thank them for taking the time today.
    Do you have anything you want to say?
    Mr. Abercrombie. Quickly, one or two. Ask Mr. Sullivan, are 
you content with the pace of the--I'm going to say 
negotiations, but the discussions to try to integrate all of 
the activities that will have to come around with the 
establishment of the new visitor center?
    Mr. Sullivan. Yes, Congressman, I believe it is moving 
along satisfactorily. We had a meeting with Admiral Vitale on 
Monday this week--Tuesday, I guess it was--and as Frank Hays 
had mentioned, all the cooperative associations, all the museum 
associations were there, and it was a great discussion. I think 
the timetable that Admiral Vitale has set up and the National 
Park Service has set up I think will work.
    Mr. Abercrombie. Has there been any discussion yet or has 
anybody come in from the city or from the consultant that's 
working on the timetable for the presentation of a rail transit 
proposal for the city? Has that come into discussion yet?
    Mr. Sullivan. We haven't discussed it. Admiral Vitale 
brought the subject up, and we will work with the city.
    Mr. Abercrombie. So you're aware of it and it's going to be 
incorporated.
    Mr. Sullivan. That's correct.
    Mr. Abercrombie. Do you agree that could make a big 
difference in terms of visitor accessibility and those kinds of 
things?
    Mr. Sullivan. Certainly.
    Mr. Abercrombie. OK. Fine. Thank you very much.
    Mr. Souder. Will you work with us for some followup 
questions to the city and to the Navy? And we'll get it on 
record here because they can be responsive in some development, 
and the report will take a couple months to get out.
    Mr. Abercrombie. I had one other thing on the question of 
invasive species. Do we have--I think we have at this time a 
clear understanding of what we're talking about, right, in the 
various areas, not just the parks? My point being is in order 
to deal with the invasive species question, aren't we going to 
have to have it coordinated island by island, which would 
incorporate dealing with National Parks, but also, by 
definition of the nature of the difficulty, it will have to 
involve multiple jurisdictions.
    Ms. Case. Absolutely. And it's actually one of the 
successes stories, I think, and one that we can be really proud 
of, is that the partnerships that are in place among the 
various land management/land owning agencies in the forest 
areas--there are two significant groups, the Watershed 
Partnerships and the Invasive Species Councils, and those are 
both cooperative groups. The Nature Conservancy is a member of 
them. The National Park Service is a member of them. And those 
have a lot of--those focus on invasive species control in the 
upland forest, and there's a lot of cooperation in them. I 
would say we have a lot of threats, and they focus in on 
invasive species control. I think the prevention issues are 
more statewide, policy-wide issues.
    Mr. Abercrombie. Do we--is it a question, then, of funding 
and coordinating of funding?
    Ms. Case. Funding is absolutely an issue. You can only do 
as much invasive species control----
    Mr. Abercrombie. So the game plans are there for being able 
to get into the control side. What we need now is the funding 
for it.
    Ms. Case. Yes. I mean, I think probably there's always a 
new threat, so you have to----
    Mr. Abercrombie. Yeah.
    Ms. Case [continuing]. Come up with a new plan, but a lot 
of planning in place and a lot of coordination in place, and 
it's resource dependant.
    Mr. Abercrombie. Thanks. Thank you very much.
    Mr. Souder. Mr. Case.
    Mr. Case of Hawaii. Mr. Obey, you have kind of a unique 
position here. You work in this area. You've been to a lot of 
National Parks throughout the country. You are focused on 
policy issues in Washington. Now, taking a look at some of our 
parks here, just--so you have perspective which none of the 
rest of us have, except perhaps Chair Souder and some of our 
guests. Are there special challenges that you perceive here in 
Hawaii that maybe we aren't seeing, and also special 
opportunities, special things we're doing right in Hawaii 
versus the rest of the country where we could particularly 
weigh in on the national debate we're having over our National 
Park system on the contribution side, as well as make sure 
we're factoring them in on the what-we-have-to-fix side that 
may not be caught up in the debate if you go into Carlsbad or 
Lassen or, you know, wherever?
    Mr. Obey. Starting with what you're doing right, I think 
the work that Hawaii parks are doing with native communities is 
terrific, and it's something that the Park Service in general 
has been getting better at over the years. And I think places 
like Hawaii and some places like Glacier Bay, Alaska, they're 
really at the cutting edge of doing some very creative things.
    Mr. Case of Hawaii. You're talking about cultural 
preservation.
    Mr. Obey. Absolutely. I think in terms of the challenges, 
my sense is that the challenges here are not necessarily all 
that different from the challenges elsewhere. They may be 
different in scale. I think the invasives problem here--it's a 
problem that you face all over the place, but here it's 
magnified. Half of the species that have gone extinct that were 
listed under the Endangered Species Act were from Hawaii. So 
it's really--this is ground zero for that issue, and I think 
it's something that could also help inform much of the rest of 
the parks system.
    And the kinds of things--when I was at Volcano yesterday, I 
went around and went to an interpretation and he was explaining 
some of the partnerships that the park has worked out. He 
talked about what they've done with the goats, and you can't do 
that alone. You've got to--Mr. Abercrombie's point, you've got 
to really engage everyone you can.
    So I think--I guess the last thing I would just add is a 
lot of those challenges come down to resources. And what we see 
continually in park after park after park is interpretation 
gets hit and the visitor experience gets hit. The ability to 
acquire new lands has been diminishing more and more every 
year. It's been evaporating. So there are enormous challenges 
that are faced across the system, and I think some of the 
things that you're experiencing here in Hawaii are really 
excellent examples for why we need to do more in park 
operations.
    Ms. Jarman. May I add? One of our board members is actually 
one of the entomologists for the State Department of 
Agriculture and someone in the previous panel mentioned the 
rust problem on the ohia trees, and he told me a few months ago 
that if that rust gets to the Big Island, it could kill all of 
the ohia trees basically in the forest in Hawaii Volcanoes 
National Park. The ohia tree is the first tree that regenerates 
in a lava field once the lava has taken over an area, and 
that's stunning. If that were to get to the Big Island, it's 
just indescribable to imagine what that park would look like 
and what the area that has ohia trees--which is a good portion 
of the side of the island would look like.
    So something needs to be done about that. And I encourage 
the bill to deal with problems outside the National Park, 
because that will come into the park, but by the time it gets 
to the park, it's going to be too late. So it's got to be dealt 
with while it's on the islands other than the Big Island. Thank 
you.
    Mr. Case of Hawaii. Well, we have a perfect example of that 
with Hawaii Volcanoes National Park, which Ms. Orlando pointed 
out when Frank Lucas came down to tour with us a few years ago, 
of a wasp, as I recall, getting off of a container ship in 
Hilo. Now, the National Park system has nothing to do with 
container ships in Hilo, has no jurisdiction, yet that wasp is 
now in the National Park killing off the birds that we're 
trying to protect. Frankly, that species of bird is probably 
history from that wasp. So that's a pretty good example of how 
if you want to talk about protecting our National Parks, the 
comment that we've got to look beyond the borders of the 
National Parks from an invasive perspective is dead on.
    Can I just stay with Ms. Jarman? And I want to focus on 
philanthropy, because it seems inescapable to me that we're 
going to have to look to the private sector much more, really a 
realistic matter to do what we need to do. And there are many 
people that want to help the National Parks. And I've always 
tried to find the way to provide a greater level of 
contribution. Obviously if I'm somebody contributing money--the 
chances of my contributing money to the general fund of the 
United States are pretty low, just as a general principle, but 
if I know I can contribute to invasive protection at Hawaii 
Volcanoes National Park or to the expansion of the park into 
Ka`u, etc., that makes a lot of sense. And I think a lot of 
people want to help from that perspective.
    So the question is as you get into philanthropy and into 
people being ready to give but not necessarily willing, what 
obstacles exist to them actually giving and what can we do from 
a national, legal perspective, Federal statutory perspective to 
provide the encouragement for them to give to the National 
Parks, to a specific park? You mentioned, for example, the 
linkage, which I hadn't considered, between a management plan 
and the willingness to give. We also obviously have tax 
deductions available for charitable contributions, and that all 
exists from a matter of general principles. I get a 
contribution if I give it to you or the National Park. But what 
else can we do to encourage people to give either to the 
general fund or to the park system or specifically to a 
particular park or particular activity?
    And in the same breath, can you just answer the question, 
can you expand on the linkage between willingness to give and 
having an adequate management plan?
    Ms. Jarman. In terms of the latter question, if I were as 
wealthy as some of the donors that we're hoping to tap, I would 
want to know that the money that I am expending is going to be 
consistent with what--I want the goals and the values of the 
park to be consistent with my goals and values for the park, 
and that's what the management plan reflects. It reflects what 
are the priorities for that park, what does that park want to 
do, where does it want to put its resources, what does it want 
to look like. And so I can say, look, here's the vision for the 
park. The vision for the park is to--and, say, in terms of 
invasive species, we want to eradicate the X from Y part of the 
park, and then the park also then has plans in their invasive 
species plan through the resource management plan about how 
they can do that, but they need the resources to do that.
    And we can say the Federal Government is unable to provide 
sufficient resources. If they were able to get X, Y, and Z, 
they would be able to do this. We need the money for that. And 
of course we all follow the Director's orders, because the 
Friends groups cannot--I don't think are allowed to build 
toilets or roads, those kinds of things. There are limits to 
what the Friends group can raise funds for.
    But that helps us to put our requests for dollars in the 
context of really what the park needs and what the values are. 
And if I know that you're interested in acquisition and trying 
to improve the overall ability of our National Park system to 
include more areas, and if there is a way that funds can 
somehow be put to that use, that's what I can talk to you 
about, and I can show you how that's consistent with what the 
park plans to do. And that's why the general management plan, I 
think, is so important for philanthropy.
    Mr. Case of Hawaii. It's a marketing tool to get people to 
give. Maybe it's time to revisit some of the basic restrictions 
that you were talking about. You know, why can't the Friends 
group go out there and, you know, contribute sweat equity to 
construction of a bathroom.
    Ms. Jarman. To the extent that the park is allowed to have 
volunteers to put in something, we probably could do that, but 
we couldn't go in and ask X person, would you donate so much 
money for the construction of this, I'm pretty sure.
    Mr. Case of Hawaii. I think that's the point.
    Ms. Jarman. There are certain restrictions on the types of 
fundraising, and Superintendent Orlando has more expertise on 
that.
    Mr. Case of Hawaii. But those restrictions come from 
somewhere. They come from within the national--I guess the 
point I'm making is maybe it's time to think about whether--I 
mean, just as an open question. We can deal with it later on, 
but, frankly, I think a lot of people would be willing to do a 
lot more sponsorship, contributions for a lot of things if they 
knew that's where it was going to go. So maybe that's a 
productive place for us to go in terms of a big picture 
consideration.
    Mr. Obey. Mr. Case, could I just add to that. Actually 
right now the Park Service is rewriting what's known as 
Director's Order 21. That Director's Order relates to 
philanthropy and what philanthropists can and cannot do, what 
the Park Service can and cannot do in relation to that. So 
that's something that I would suggest that you take a look at, 
but that's something that's live right now that you might want 
to look at.
    Mr. Case of Hawaii. We actually, just for the record, have 
a State law here in Hawaii that allows people to designate 
contributions to the State or to a county government for the 
specific purpose of acquiring a piece of property that is 
available for purchase, under eminent domain or otherwise, and 
the quid pro quo is I'll contribute as long as I know that's 
what you'll use the money for. I won't do it otherwise. Now, I 
know about that State law because it was one of my only 
original ideas in 20 years of public service. To my knowledge, 
it's never been used in the State. Nonetheless, it's sitting 
there. I think it's a pretty good example of what could be done 
to facilitate people with contributing.
    OK, I'm going to ask just one more question and then pass 
back to the chair.
    Ms. Case, we talked a little bit about conservation 
easements, and that's the whole other part of this, because 
we're obviously kind of having a problem in terms of bringing 
that in. So there has to be a much broader level of 
participation in terms of private, non-Federal government 
entities either acquiring to hold or acquiring to protect the 
intention of transferring. Maybe you could just kind of, for 
the record, describe the Nature Conservancy's conservation 
easement efforts in Hawaii, which I think goes back several 
decades.
    Ms. Case. Sure. The Nature Conservancy has made extensive 
use of conservation easements in our preserves. We have a dozen 
preserves in Hawaii, starting about 20, 25 years ago. Waikamoi 
Preserve, which is adjacent to Haleakala National Park, is a 
conservation easement. The underlying fee owner is Haleakala 
Ranch. Kamakou Preserve on Molokai is a conservation easement. 
The underlying owner is Molokai Ranch. We have a long-term 
conservation lease from the Campbell Estate for our Honouliuli 
Preserve in the Waianae Mountains on Oahu.
    We have--and some of those are donations. We have several 
conservations easements on west Maui from Amfac, A&B, Maui Land 
& Pineapple, on Lanai from Castle & Cook, and these are all 
creation of preserves. Some of the early ones were purchased. 
The later ones were donated. Particularly as we became 
increasingly aware of the management expense, it became much 
more important to kind of hold our privately raised dollars for 
management, and we were able to work with some generous land 
owners to donate conservation easements.
    And in south Kona, or Kona Hema Preserve, which is adjacent 
to the Kahuku addition of Volcanoes National Park, we did it 
cooperatively with the U.S. Forest Service under its Forest 
Legacy Program. We used Forest Legacy Easements on the three 
adjacent parcels. And we plan to use that mechanism elsewhere 
in Hawaii because we think it's a fantastic one to add 
federally protected areas with a private partnership component.
    We have an easement going back to the late 1960's, we've 
helped with the Kipahulu extension at Haleakala National Park, 
and we have several parcels that are still in the works in 
various stages for donation to the park. One of them is a 
conservation easement which we hold. It's in a buffer area that 
was transferred out to a private landowner. So it's easement 
restrictions so that it protects the view plane, and we hope to 
be able to transfer the easement to the park so that it is, you 
know, part of the protected area.
    I think that in terms of the--when you do a conservation 
easement, particularly if one is purchased, you're going to go 
through a series of analyses of what restrictions are important 
to have in that easement and what's left for the landowner. And 
of course the more restrictions you have, the more expensive 
the easement is or the higher the donation. And at some point 
it becomes more cost effective and simpler from a management 
perspective to just buy it outright, or, you know, best case, 
have it donated outright. So you're always weighing that 
factor.
    I have often thought that there may be some cooperative 
mechanism in here that could help with acquisitions and land 
management at the same time, that we're able to either work 
something creatively that is consistent with current law or 
perhaps some changes in law, for instance, if someone is 
willing to donate or sell land for acquisition on the condition 
that there be management money set up from another source, 
maybe another public source, maybe another private source, or 
if there's acquisition money from a public source and the 
landowner is willing to take the--to sell the property and take 
those funds and put it in a conservation trust fund for the 
long-term management, there might be some ways to work together 
to solve both the acquisition side of it and start some long-
term management capability. So I think that is one opportunity 
we have to look at.
    Mr. Souder. Let me start with your last point and work in 
some other things, and let me ask Mr. Obey first, just to kind 
of help us when we get back to Washington to start working with 
the legislation, and not only the Centennial Act but other 
potential things we can do either in the short term maybe as 
part of the 90th or in the 100th, pursuing this question of 
donations and endowment. Ms. Case raised an interesting 
question here. In our Boston hearing, and also in what they're 
doing up in Arcadia, and when I visited there later, their 
carriage roads came with endowment.
    Is it conceivable that we could--to some degree, this runs 
counter to the whole tax simplicity argument, but at the same 
time individuals involved in this could understand some of 
this. Is there a way that, A, we could target some of what 
we're trying to do with the Centennial Act into an incentive 
with endowment? And as we look, at the very least, at how any 
kind of legislation has to be put through, that there could be 
some match or greater ties, if it includes an endowment, as 
opposed to if it doesn't include an endowment.
    Because I know where the problem comes in is that if land 
donations and easements come tied to the actual fund, which is 
a great idea, in one sense, so it isn't going to be drained out 
of what we have for the existing operations for the parks, 
unless it comes with money for the parks, which you can't bind 
Congress to Congress. Could you kind of kick around to--you 
know, like there's got to be some way that we can be--
endowments for management are clearly going to be one of the 
things that enables us to absorb more land and try to get 
around this question of new lands.
    Mr. Obey. I think that's an interesting thing to explore. 
Clearly money's been evaporating, and that's why we need to do 
something. I think what I wouldn't want to have happen in that 
context would be for there to be an expectation that you 
weren't going to acquire. I think that could be working against 
the goal. But I think certainly that's something worth 
exploring.
    The question of endowments overall, they were extremely 
successful, and that's being replicated at Golden Gate, as you 
know. I think endowments--I'm not sure if you're thinking of 
endowments strictly on the private sector side or also on the 
public sector side of funding. On the public sector side, my 
experience has been that the appropriators tend not to be crazy 
about funding endowments because they'd rather just appropriate 
the money. but on the private side that's a source to think 
about.
    Mr. Souder. What I wrestle with, and nothing's worse than 
to come out with an MBA in management and go into Congress, 
because first off, you can't do long-term planning in Congress. 
In social issue areas it's the biggest nightmare, but the parks 
aren't too far behind. We're putting more management systems 
in, but it is a nightmare to work through. Because what I would 
like to think is that you look across the Nation, and that 
there would be a logical ranking of here are the things that we 
really need to acquire, you've got a certain amount of points 
there, if somebody has a willing donation, you factor that in, 
and if they have an endowment, you factor it in, and that 
something that's No. 6 may get bumped up if it has money tied 
to it, and then you have an urgency loss risk to the system 
analysis.
    And I think variations of this occur at the park level, 
variations occur at the regional level, but then we kind of 
subdivide this nationally and say so much money is going to go 
to each region so it's not really a national vision, it becomes 
equity-based regional divisions. There's a fundamental 
unwillingness to some degree in institutions like the Park 
Service to make judgmental decisions because, well, every 
building ought to be preserved, every species ought to be 
preserved, every variation of every species ought to be 
preserved.
    And when you're unwilling to make qualitative judgments, 
then what happens is each of us earmark, and then you go down 
through the bill and you find that individual Members of 
Congress, based on their seniority or power or access or 
whatever, get this or this for their district, as opposed to 
having a rational plan. And I'm trying to sort through are 
there certain things we could put in, financial incentives, 
that would tip a little bit of that balance, understanding that 
these are risky tradeoffs?
    Because what happens is areas where there's wealth or where 
people retire, like Arcadia or San Francisco or potentially 
parts of Hawaii, I think would be in a tremendous advantage 
over other parts of the country in adding things if we do it 
just by endowments and people who give. It also would be--in 
effect you could have, which I raised in Boston and informed--
Director Kennedy acknowledged, look, it's a tough question. In 
effect, then, very wealthy people get to manage what direction 
the Park Service goes. It's no longer a democracy. Those who 
have the money to donate certain things, can do that.
    Now, as a practical matter, however, if we don't have 
enough funds in the public sector to do it, were it not for the 
donors, we would be up a creek right now. And along that line, 
I would like to talk a little bit about the nature conservancy. 
And I think we've had one other hearing, maybe two, but I would 
like to develop a little bit from your perspective.
    First off, I presume you've been having some discussion 
about proposals in potential tax legislation that would 
restrict land gifts. Do you want to comment on that?
    Ms. Case. I don't know what the current status of those 
discussions are but, you know----
    Mr. Souder. It would be crippling basically.
    Ms. Case. Tax deduction restrictions on donations of land 
would be crippling to conservation.
    Mr. Souder. And that if we didn't have Nature Conservancy 
stepping in many times to purchase these lands or get them 
donated, what percentage, in your experience--you named a whole 
bunch of things where you have easements and conservancy lands. 
Do you expect at a certain point a number of those things to 
fall under either Park Service or one of the Federal agencies 
and being able to leverage the dollars to come back into 
other----
    Ms. Case. I would say that roughly speaking half of the 
land acquisitions that we have done have been what we call 
cooperative transactions where the ultimate landowner is going 
to be an agency, particularly the National Park Service and 
National Wildlife Service, and we're able to step in and help 
the negotiations and advance funding. Funding comes ultimately 
from the appropriation and about the other half is from 
privately raised money, private or donated land to be held as 
private reserves.
    Mr. Case of Hawaii. Can I just amplify that point just for 
a second? Let's document this for the record in Hawaii. Run the 
list here. We just had a huge addition--incredible addition at 
Hawaii Volcanoes National Park, which we call Kahuku. That 
wouldn't have happened unless private entities--it might have 
happened, but the Government wasn't going to buy it outright. 
So that one might have been lost.
    Haleakala National--well, let's stay on the Big Island. 
Pu`uhonua Honaunau just had a major expansion which was held 
against development pressures. That wouldn't have happened 
unless the mechanism was in place. I forget Kaloko-Honokohau, I 
think an element of that was similar.
    On Haleakala National Park, Kipahulu, the Seven Sacred 
Pools were worked on by the Nature Conservancy first to kind of 
consolidate clear title. We have a brand new addition coming in 
soon, I don't think it's there yet, to the Haleakala National 
Park which was acquired, held not by the Nature Conservancy but 
by another entity until basically it could be absorbed into the 
National Park.
    Over on Kauai right now the Fish and Wildlife Refuge is 
under expansion of the Kilauea Point National Wildlife Refuge. 
And so this is, for Hawaii, invaluable. This entire mechanism 
of donations, of private holding, of private consolidation, of 
partnership with the National Park Service is key to what we 
have here in Hawaii. And, you know, we want to expand it, not 
contract it. So that's just Hawaii. I'm forgetting a few 
examples somewhere.
    Mr. Souder. I'm worried that in charitable tax reform we're 
going to have an unintended bite. I think it's interesting 
because, quite frankly, this process has been abused in some 
cases where individuals will get a charitable foundation set 
up, put their kids in it, and in effect get a tax deduction for 
their kids with 80 percent going to the utilization of staffing 
and not a foundation. And in trying to address some of these 
kind of things in some debated, highly publicized cases around 
the United States, I'm worried about something slipping through 
unless we illustrate and understand exactly how these holding 
patterns are occurring in the National Park Service around the 
United States, because our ability to add land is at best 
incremental in these fights. And without the Nature Conservancy 
and other groups' ability to do that, of which part of the 
fundamental question is how critical is the tax code on that? 
And my assumption is pretty critical. If it was capped or put 
restrictions--and look, some of it is self-serving. I mean, the 
celebrated case that the New York Times has highlighted is 
David Letterman getting all the land around him in effect 
privatized so he can have protection around his estate, but, 
hey, if it kept land on Long Island free, I'm willing to let 
him have a protective buffer to his house because we'd never be 
able to have that land undeveloped if we hadn't done it that 
way. And the question is how can we document this?
    Ms. Case. Landowners still give up value. They may be 
adjacent to a protected area, but they give up significant 
development rights when they do that. So without tax 
incentives, it would be significantly crippling to private 
conservation as well as cooperative conservation, and I can 
provide some examples.
    Mr. Case of Hawaii. If I could add just one more ingredient 
here, and that is regarding condemnation, and all this, that, 
and the other important tax advantages for many private land 
owners, the key is condemnation, which has tax advantages. Now, 
that's not an adverse seller. That's a willing seller, as long 
as it's a--but if they get the umbrella of condemnation, they 
have a tax advantage which works for them and works for the 
Government. So that's another area that under the current 
perspectives might be targeted because it's got condemnation in 
it, but that's not exactly what's happening, but it's a benefit 
for the National Park Service.
    Mr. Souder. Do you know if the Nature Conservancy has lands 
that you would be reluctant to give over to the National Park 
Service because of public access?
    Ms. Case. Can you explain your question a little more.
    Mr. Souder. In other words, does the Nature Conservancy 
have lands that they've purchased that if they gave them or 
sold them to the Park Service, might then allow visitor access 
and wouldn't be as wild? Have you ever had land swaps where 
you've said, look, this has to be wilderness, treated as 
wilderness, and not to go into the Park Service?
    Ms. Case. Well, the transactions we assist on are 
comfortable that the long-term conservation needs are going to 
be met. There may be public access provisions, and in some 
cases for a National Park that's extremely appropriate. And 
that's just a matter of figuring out how to plan for access 
appropriately so it doesn't harm the natural resources, but 
it's important to get the public into the wilderness as long as 
you can protect the wilderness from any associated threats.
    Mr. Souder. Let me move to Ms. Jarman, and Mr. Obey may 
have a comment on this too. Do you know, do Friends groups--are 
there any organized, say, conferences on either fundraising or 
shared best ideas that you have together in teleconferencing 
materials that are provided through NPS or do you have a 
national group? Do you ever do Internet conferencing?
    Ms. Jarman. We belong to what's called the Friends 
Alliance. Our president of our Friends board for the past 2 
years has been to their meeting, and that--the purpose, I 
think, of the Friends Alliance is to help--particularly we're--
this is our--we've only had 1 year of philanthropy. This is our 
second year in philanthropy, and Superintendent Orlando has 
been very supportive in encouraging us in this arena. And she's 
the one that has gotten us in touch with the Friends Alliance. 
And we can provide you--I haven't been to their meetings, but 
certainly we can provide you with more information on what they 
do, but I know the president came back and reported a wealth of 
information, a wealth of ideas.
    And those Friends boards that have been in existence for a 
much longer time and have been very successful at fundraising 
are now in the position where they're actually working with the 
younger Friends boards to help us develop fundraising plans and 
to be able to do more. And workshops on Director's Order 21 is 
a--that document in and of itself is--I'm a law professor. I 
read that and I still--my eyes go crossed. And one of my fellow 
board members said, you know, you've got to read that and 
summarize it, because I read it and it makes no sense to me 
whatsoever, and I said, well, it makes a little sense to me, 
but we can do that. But those things end up being very complex. 
But these meetings, they teach you what are the basics of the 
Director's Order and what you can and you cannot do. So that 
mechanism is in place and we are beginning to take advantage of 
it.
    Mr. Obey. It's my understanding that the Friends Alliance 
isn't actually an incorporated entity as it is more a loose 
affiliation of Friends groups that come together that have been 
holding these conferences, and actually when I was at Hawaii 
Volcanoes yesterday, the staff I talked with had just been to 
that same conference and talked about how enormously valuable 
it was for him because they're trying to figure out how they 
can engage in some real innovative work with folks outside of 
the park. So he was able to get some ideas there.
    Mr. Souder. Is the National Park Service itself allowed to 
coordinate meetings of these groups? I would think it would 
give National Park Service great benefits to have these groups 
formed and know about the technicalities of law, how to do it, 
sharing brochures, sharing videos, best practices, how to work 
a list.
    Mr. Obey. I think that's actually the goal of the Friends 
Alliance. I think it was prompted by the National Park 
Foundation.
    Mr. Souder. So work under the National Park Foundation and 
have that portion to followup with that particular angle, how 
to interconnect, because clearly that is a good supplement. 
Part of the reason there's concerns about how--which we heard 
in San Francisco this week about what the Friends group can 
fund is that we don't want the Friends groups to take over 
basic responsibilities inside the Park Service that the Federal 
Government should be doing. We've got to figure out how to have 
them be added components. And people would be willing to do 
that. If we don't have any other choice, I think that may be 
the case, but we've got to be a little bit careful to say this 
is what the public sector is going to do. Here's what the 
private sector can add to it. Otherwise, in effect, even more 
privatize the park question, but----
    Ms. Jarman. In addition to the Friends Alliance, 
Superintendent Orlando has assisted us in getting access to 
workshops on board development, you know, for non-profit 
boards. So we had one, what, a year ago and another one coming 
up sometime after the first of the year in February that we as 
the board didn't have those resources, and Superintendent 
Orlando has been able to help us avail ourselves of those. So I 
believe within the different Friends groups that's possible as 
well.
    Mr. Souder. Could you--the Friends group in your area might 
be--Hawaii Volcanoes would be a very interesting model question 
here. What percentage of your Friends group lives on your 
island? Could you get that?
    Ms. Jarman. We can get you that information.
    Mr. Souder. Do you think it's 20 percent?
    Ms. Jarman. I think it's much higher than that.
    Ms. Orlando. Probably closer to 100 because that's a 
resource that we haven't tapped is off island and the second 
homeowners.
    Ms. Jarman. Two of our----
    Mr. Souder. Madam Court Reporter, how do you want to handle 
like when Ms. Orlando just responded there? Do you want us to 
repeat what she said?
    The Court Reporter. No, that's fine. I was able to hear 
what she said. Thank you.
    Ms. Jarman. Maybe we should have Superintendent Orlando up 
here.
    Mr. Souder. We may if we--go ahead.
    Ms. Jarman. One of our board--we have two board members now 
on, one just went off, who own property in Volcano but live on 
Oahu. And they come to Volcano when we have our board meetings, 
etc., but I think--we can get you those numbers, but I'm sure 
the vast majority.
    Mr. Souder. Do you see yourself soliciting part-time 
residents of the island and visitors to become part of your 
Friends group?
    Ms. Jarman. Well, our membership committee now has a goal 
of 500 members in the next 3 years. We're at 160 right now, and 
that committee is developing a plan to expand our membership 
base and to expand it not only beyond Hawaii island but beyond 
Hawaii. I mean, we get so many visitors from around the United 
States and around the world who come to Hawaii Volcanoes 
National Park, and find a way to tap those as well.
    Mr. Souder. Do you see yourselves doing a letter in 
conjunction with the park to those members to build support 
base on needs both public and private?
    Ms. Jarman. I'm not on the membership committee, and so I'm 
not sure what they're planning, but I could ask them to get 
that information to you. We're also putting up a Web site, 
talking about technology, and we're finally putting up our 
first effective Web site. And we're expecting that through our 
Web site--part of it is going to be people can join the friends 
board through the Web site. We're going to try to make that 
easy and seamless for them, and we think we're going to be able 
to expand our membership considerably that way as well, and 
offer some of our seminars in a way through our Web site so 
people don't have to be in Volcano National Park to come to the 
seminar.
    Mr. Souder. Mr. Sullivan, I presume your group has broad--I 
mean you have a very unusual Hawaiian accent yourself. I assume 
you have a lot of diverse membership in the United States in 
your organization.
    Mr. Sullivan. Well, we do from the standpoint of donors, no 
question, across the country. And our membership is made up of, 
for the Arizona Memorial Museum Association that membership is 
from visitors that come to the park and choose to join on as a 
member. I might add that I did attend the Friends group meeting 
last year in Portland. There was another one just recently back 
in Gettysburg, I believe, and I didn't get a chance to go back 
to that but the meeting in Portland I thought was very good. 
One of the problems, Friends group do not generally have a lot 
of money. So to send a person to that meeting is expensive for 
them, as I understand. But I think there's a lot to be gained 
from that meeting, and the National Park Service is represented 
there as well as National Park Foundation.
    Mr. Souder. Would you see yourself participating if 
something like this could be fed over the Internet from a main 
location with certain speakers and interactive? I mean, we're 
moving to wireless and teleconferencing in all sorts of 
organizations and universities around the country. I'm sure the 
universities here in Hawaii have locations. We usually go in 
where anyone can go in and interact without having all the 
travel expenses. Would you find that kind of thing useful? 
Would you go to things like that?
    Mr. Sullivan. Yes, I think so, and of course the 
cooperative associations with the National Park Service have 
their own umbrella organization. It's called APPL. I forget 
what the A stands for, but it's Partners for Public Lands. That 
group meets annually. In the spring it's meeting in Little 
Rock, and the workshops that were just talked about are 
provided during the course of those 3 or 4 days, several 
workshops go on for development, how you get a capital 
campaign, etc. So that's all laid out, and the members of the 
cooperative associations attend those and their board members 
attend. So they come away with a pretty good education of what 
to do.
    Mr. Souder. In an association like yours, do you find--
obviously all association's memberships are going to be older 
than the population as a whole, because people will tend--and 
it's not like it dramatically is going to change and people 21 
are going to join the History Association. What you hope is you 
have a steady replenishment of those organizations.
    Pearl Harbor just went through a very historic anniversary. 
Many of the distinguished veterans, like Mr. Saunders, may not 
be around for many more huge type of anniversaries like that. 
Not that you're not going to live to be 120, just saying 
statistically the odds are decreasing. And this is a big 
question on our World War II type memorials. Do you see younger 
people coming into your association, younger being--I'm 55--45 
to 50, coming in to replace kind of the tier of the so-called 
Greatest Generation?
    Mr. Sullivan. We have a Board of Directors in the 
association and we have 18 members of the board. We just 
increased that. Originally, a few years ago, about 5 years ago, 
we only had seven members. Then they increased it to 15 and we 
went to 18. So the members we just brought in are much younger 
than the ones that were there. So, yes, we're finding we're 
able to attract board members that are younger.
    Mr. Souder. Maybe we could have Mr. Saunders briefly tell 
your personal story and then why you think a memorial like this 
is so important.
    Mr. Saunders. Personal story gets rather involved. My ship 
was stationed here at Pearl Harbor about November 1940. In the 
middle of 1941 I went home on leave, vacation, and I didn't--I 
had my 30 days and I came back and reported in to San Diego for 
transportation back to Pearl, and they put me to work jerking 
sodas, working in the soda fountain. And they didn't want to 
let me go, and I kept asking the lieutenant in charge, I needed 
to get back to my ship. Well, this started in July when I went. 
Then I reported in there early August. Here it was September, 
October.
    November decided, hey, I'm really tired of sitting there, 
you know, not being able to get back to the ship and not 
wanting to do what they had me doing. So I sat down and wrote 
the flag lieutenant a letter, and it wasn't very long after 
that this lieutenant comes down, and, Seaman Saunders, how long 
will it take you to get ready to go aboard ship for 
transportation? I said, Lieutenant, my sea bag is packed. I'm 
all set to go. I can be there. You got 15 minutes. I'll be 
there. OK.
    They put me aboard the Shaw, USS Shaw, and so I was on 
there for transportation. We pulled into Pearl Harbor on 
December 4th, and of course you know when that happened. That's 
how come I was back here December 7, 1941. The ship went into 
dry dock. The Shaw went into dry dock, and they had to pump the 
water out and get the thing settled. And as soon as the thing 
was settled, I'm standing on the quarterdeck with my sea bag 
over my shoulder, and I saluted the Lieutenant and requested 
permission to leave the ship. And I saluted the colors and 
walked off the ship.
    I looked back and waved at some of the fellows that I had 
been visiting with for the past 6, 7 days. Didn't know them 
really well, but they had an idea what I was doing. So when I'm 
walking away, I'm waving at these fellows, little knowing that 
3 days later the USS Shaw would have her bow broken off. The 
bow was blown plum off of that ship, and some of the fellows 
were killed that I didn't know real personal but some of the 
people were killed on the ship.
    Well, I'll come back to the Shaw a little later. I got in 
what they called--they had a big long--about as long as this 
table, I guess, and about the same width--was one of these 
mules that you use in the shipyard that were pulling things 
around. They were pulling this trailer. It was real low to the 
ground where you just step up into it, had benches all over 
here, and that was the transportation they used around the 
shipyard.
    So I went to Ten Ten dock, got over there, and I went on 
board the boat and went out to the equipment. I was attached to 
the staff, and the staff was on board the USS Rowley. That's my 
ship of record. I never tied the boat, never lived on it. 
Waited, took somebody from there to someplace else. But the 
morning of December 7th I got checked in and I got down to my 
boat and back on the job, and I was there. I was so happy. And 
the fellows in the boat were just glad to have me back because 
they had been shorthanded for about 4 months. And so we tied 
our boats up at Aiea Landing. That's where the CINPAC 3 
boathouse is now. I don't know if you two gentlemen know. I 
know Congressman Case knows about that.
    But at that time the landing was just a finger pier going 
out into the water. Later on after the war started, quite a 
while after, they built this fancy boathouse on there and that 
became the CINPAC boathouse. But we used to go in there and tie 
up at night, and there would be maybe 8 or 10 boats. You put 12 
on one side of the pier and you could put 6 more on the other 
side. That's the most boats there at one time, but the boats, 
we tie up there and we have a man that would watch the ship, 
blinker lights at night.
    And so it was unusual for the airplanes to come over 
because they had been having mock race. From the time I got out 
here in 1940, every weekend you'd have a mock race, planes 
would come from Kaneohe over to Pearl Harbor. They'd come from 
Wheeler Field, which was Army at that time. We didn't have an 
Air Force. We had what you called the Army Air Force. And they 
would come down to Pearl, or Pearl Harbor had our office out at 
Ford Island and they would be off at Schofield or wherever 
else. So every weekend they had all these planes around.
    Then December 7th happened here. All those boats were lined 
up there and we were about--I think we were tied up to the pier 
and had two other boats out. And I'm sitting--I had just got 
through washing some clothes and wringing them out and putting 
them in my scrub bucket, and I had on my swimming trunks and 
all hell broke loose. Explosions were coming from every place, 
and even when they come from the harbor there, they were 
ricocheting up in the mountains and echoing back. Sounded like 
you were right in the middle of the damn thing, you know, the 
explosion was right where you were at. It was really terrific. 
It was hell, that's all.
    Anyway, I'm watching the battleship over there and the 
airplanes--well, I saw the Arizona, and I saw some of the other 
ships get hit. And from where we sat, where the landing is, you 
had a clear view of Battleship Row. There was no bridge there 
then, no buildings in between you or anything. So you could 
look from the landing right across all the way the full length 
of Battleship Row.
    When the explosions went off, I'm looking across Ford 
Island and here's an aircraft hanger up in the air. I could see 
daylight underneath it. The explosion just picked it up off the 
ground and set it back down. I heard later that it almost went 
back on its foundation but it was off just a little bit. Am I 
still all right here?
    Mr. Souder. If you can finish, and then I want to ask you 
some questions.
    Mr. Saunders. Finish? I told you it's a long story. Anyway, 
these planes are coming over and one of them come across the 
landing where we were at toward Aiea and over in the cane 
fields. That's what it was then. There's a city up there now. 
At that time it was cane fields. And then they come by. I'm 
standing up there gawking, looking up at them in my swimming 
trunks, and he tilted over like this and he was firing his 
machine gun and one bullet went plunk about 20 feet out from 
the pier on one side, then the next one went plunk on the other 
side, and I'm in his line of fire here, you know. But we never 
saw that plane again.
    Then about that time the place cleared out. Nothing was 
coming in, and so our man in charge of the boats, name was 
Vansteinberg. Now, that was his full name. I forget what his 
name was, but everyone called him Van. But Van said--somebody 
says, hey, this is a funny mock race. Van looked up and said, 
mock race hell. See the rising sun on the side of that zero? 
Japan is attacking us. Boom, everyone knew.
    He said, OK, let's get out in the boat and go out and see 
if we can pick up some of the men, because he had seen them 
blown right off the ship, you know. So we got the boat on the 
way and went out there, but by the time we got there the 
water--there was oil all over the water. And we never did pick 
anybody up. There was nobody close to where we were at. And we 
got out about as close as the Arizona and another boat had gone 
in and had some people in it that they picked up and it was 
headed back to the landing. It had a hole in the side of the 
boat about, oh, 18 inches long. One of the planks had just 
blown out, got hit by a piece of shrapnel. And he was really 
making knots making back to the base.
    And then we were just about even where the Arizona was and 
we looked up and here's a bunch of high flying bombers coming 
over Hickam across the Navy yard toward the battleships again. 
So we get there and then when we saw those bombers, he said, 
we're going back to the landing. This boat is already ahead of 
us and maybe just follow them into the landing.
    When we got there there was a fellow standing there and he 
had his--all he had on were his shorts and his undershirt and 
his shoes, and he was talking up a storm. And we tied the boat 
up and we were listening to him and he says, I was blown off 
the ship. He was a warrant officer off of one of the 
battleships. I never did figure out which one he was off of, 
but here he is standing there in his underclothes. He says, I 
lost all my clothes, and he says, I lost my socks, but I still 
got my shoes on. The damn explosion had busted the islets on 
his shoes, took off his socks, and these little strings from 
the islets of the shoe strings was hanging out.
    And so about that time Van says, hey, that's our recall. We 
got to go back to the ship. So we all got in the ship. I'm 
still in my damn swimming trunks. And picked up my bucket of 
clothes and put them down in the forward part of the boat. We 
slept right there in the boats. You had four bunks in the 
boats. You had 35-footers and 40-footers, nothing like the 
boats you see today. But the Navy had barges and so forth. 
Anyway, we get in the boat and get underway and go out to the 
Raleigh. We operated from the Raleigh as well as the Whitney. 
The staff command was split up between the two ships, and we 
operated mostly from the Whitney because we were the supply 
officer's boat. He was a full commander, name was Shaddocks, 
Commander Shaddocks. Our boat was assigned to him.
    So--excuse me just a second. I'll be all right. I got in 
the boat and we went out to the Raleigh. Now, the Raleigh and 
the Battleship Utah were tied up stern to stern, and we had to 
go between the two sterns to get around to the officer's 
gangway. And when we approached the ship, the enlisted gangway 
was underwater. The ship sunk right down. It had taken a 
torpedo underneath the liberty launch full of people and went 
right into the fire room and exploded in the fire room. But the 
kid on watch was--in the fire room was--had hauled up the patch 
and had his arm in the hatch. When the explosion took part, it 
just lifted him up and set him on his okole. Excuse me, rear 
end. That's a Hawaiian word. Set him on his okole on deck.
    Nobody on the Raleigh was hurt. They took a bomb down 
through the turret, through the magazine, out the side of the 
ship, underneath the quays it was tied up to, and exploded out 
there. So there were no fires on the Raleigh. It just settled 
down and there were no casualties on the Raleigh.
    So we took the boat and we went between the two ships, and 
as we're passing between the two ships there's a guy on the 
bottom of the Utah, go get a cutting torch, go get a cutting 
torch. There's a man on the bottom of the ship. We need a 
torch. So went up the officer's gangway, told the OD what we 
needed. It was no time at all that we had a shipfitter down in 
the hole with his cutting torch, striker, and the whole bit, 
put him in--right in where the officers ride in the back there 
with his bottles and all. You know, this was all nice, had 
white covers in there and fancy macrame lace all around in 
there, and we put this man down in there.
    Now, we backed up. We helped the ship fitter out of the 
boat and get on the bottom of the Utah and helped with getting 
his bottles up there and all of this gear, and we left him 
there and backed up and went back to the gangway to pick up our 
passenger, a lieutenant. I don't remember his name or--I just 
remember he was on the staff and he wanted to go to the 
Whitney. So we took him on over to the Whitney.
    Now, we found out later that they did get a hole cut in the 
bottom of that ship and they got that man out of there and he--
he's living in California. There's a town there--city up in 
Canada with the same name. Well, that's beside the point. 
Anyhow he's still living there, and I have never been able to 
contact him. We had the Pearl Harbor Survivors Association 
meeting out here one year and he came, but I never could catch 
up with him. So I've never been able to see him to tell him I 
was one of the guys that was involved in getting him out of 
that boat.
    Mr. Souder. How old were you at this time?
    Mr. Saunders. I was 23 years old. I had 6 years in the Navy 
when they bombed Pearl Harbor. I'm 87 right now. I joined just 
a--like a little less than a month after I turned 18.
    Mr. Souder. When you go back to the current site, does it 
bring back a lot of these memories?
    Mr. Saunders. Oh, yeah. I'm OK--if I take somebody out to 
the Memorial, a guest, which I do quite frequently, friends or 
family or somebody that's been sent to me from one of my kids 
over there--I've got five children--or had five children. 
They're all adults now. The youngest one's 47. The oldest one's 
60.
    Mr. Souder. They're probably adults now.
    Mr. Saunders. So they're all adults, and three in between 
them. So when I go out there, I'm OK. But if I go out there 
when they're having a service, I get all shook up. I get real 
emotional. I just get--I just can't hardly wait to get away 
from that. It's really touching and it bugs me. I didn't know 
anybody on the Arizona, but I saw it go down, and it's--
gentlemen and ladies, it's hard to talk about this. I do it 
occasionally, but I'm really worked up. I'm sorry.
    But we got the passenger and went back between the two 
ships and we went over to the Whitney and we let him off and we 
laid off--we laid off from the gangway. We're out there 
floating around waiting for him to recall us. So we did that 
and then he wanted to go to Ten Ten Dock. Took him over there 
and waited for him and brought him back. And that boat engine 
was not turned off at all that whole day. It kept running 
continually. Good thing you had two 45-gallon tanks of diesel 
fuel to keep it going, but we--every time we went by the 
Arizona it seemed to be settling just a little deeper, a little 
deeper in the water.
    And so we finally went back to--we didn't get back to Aiea 
Landing for about 2 weeks. We were busy running all over the 
harbor and laying off wherever we could. So we went back in 
there about 2, 3 weeks later. And they had turned Aiea Landing 
into a morgue. That's where they took all the bodies from the 
ships, and they had a whole stack of pine boxes, used them for 
coffins, and stacked up over on one side of the landing. And we 
were trying to pick up some of our gear, because we had a big 
tent up at the head of the landing, and we do our laundry and 
go in there with our ironing board and iron and so forth and do 
all our clothes in there. And sometimes some of the guys might 
sleep up there, but we got that done.
    But here's one of these boxes and they've got a body in 
there, a sailor, and they had dug him out of the Oklahoma. He 
was off the Oklahoma, and here he was laying down, his arms 
folded. And, folks, that man's skin was as white as that paper, 
so help me God. It was completely white, and he wasn't--he 
wasn't swollen. He wasn't bloated or anything. He was just--I 
guess the saltwater must have bleached him out. Cut him out of 
one of those compartments. Oh, man. Please excuse me. I'll get 
the rest of it out.
    We went back and done what we did. One of the things I 
noticed on December 8, 1941, they had a little barge running 
around, oh, about half as big as this, from here back, and had 
a big tank on it and the engine, and it was propelled, self-
propelled, and they called it the Juicy Lucy. And this thing--
they run it--suck all the oil they could off the water and put 
it in this tank and then it would go over and be pumped out of 
the tank. And before they--when they got full, they'd open it a 
little, because all the saltwater settle in the bottom and they 
would drain that out, because they would get some water with 
this big vacuum cleaner that they would use to suck up the oil 
there. I only saw one, but later on they had 8 or 10 of them 
because, hey, Pearl Harbor was black all over, all around the 
beaches. The oil was just thick on top of the water. I don't 
know how long it was before they finally got it cleaned out. I 
know for a long, long time it was there.
    Mr. Souder. Mr. Saunders, I need to move on to a couple of 
other things, but I appreciate you----
    Mr. Saunders. That's almost all of it anyway.
    Mr. Souder. I wanted to get this into the record because a 
lot of times the history and cultural resources are lost in the 
debate over the National Park Service because we think of them 
as natural resources and all the beauty and the big buildings, 
and quite frankly at Gettysburg, PA, at our hearing there, and 
Faneuil Hall in Boston, had we had somebody come forth to tell 
their personal story, we'd have known they were a fraud, 
because those battles are much older in American history, but 
to have the opportunity at one of our hearings to have somebody 
here to give eyewitness testimony to what they saw at one of 
our most treasured sites was, I think, good to get into the 
record, and I appreciate the emotional difficulty of your 
recalling that and your willingness to share that.
    And you were talking about the importance of sharing it 
with your kids and friends and being willing to go back to the 
site. One of our challenges in the Congress is how we can keep 
this site adequately funded and let people see it, what Mr. 
Sullivan's group is working with. And do you feel and does Mr. 
Sullivan feel that the site, as it's presently constituted, 
gives enough of the accurate feeling that this can be passed on 
like Gettysburg and Faneuil Hall in Boston and other sites?
    Mr. Sullivan. I think when we complete the new visitor 
center that we'll be able to do that, because we're going to 
increase the size of the museum by more than twice. And we'll 
have a space that is climate conditioned, and right now we 
don't have that. And we have many of the memorabilia and 
artifacts in another building because we don't have the space 
to put it in. So that will help us immensely once we get the 
new building, and we'll also have an educational center with 
library resource capabilities there. We're going to build an 
amphitheater outside so the students when they come, 
particularly, or any groups park, rangers will be able to give 
lectures as well as the survivors, as long as we have that 
national treasure. So I think that the visitor center will be--
--
    Mr. Souder. Will you be incorporating some of their video 
testimonies like they do at the Holocaust Museum and so on?
    Mr. Sullivan. Yes. We have done a tremendous amount of oral 
histories, and in fact the Arizona Memorial Museum Association 
has produced a DVD-Rom with many of the oral histories on that 
DVD-Rom, and it includes a--you put it in the computer and you 
can bring up a map of Oahu and you can click on Schofield 
Barracks and the survivor will appear and tell you exactly what 
went on at Schofield barracks. You can do the same thing at 
Wheeler and other places on the island, and then all of the 
oral histories are all there in the DVD-Rom for the teachers to 
use.
    Mr. Souder. Thanks. Mr. Saunders.
    Mr. Saunders. Just a short word. I'm sure that we've got 
everything laid out to where the history of Pearl Harbor will 
be perpetuated for many, many years.
    Mr. Souder. Do you feel--I assume you saw the movie Pearl 
Harbor. Like Saving Private Ryan--Saving Private Ryan captured 
a lot of the chaos at the beach and no movie had been that 
realistic. Do you feel that the movie Pearl Harbor captured 
some of the chaos you felt that day on the water or is there 
still a need to kind of fill that----
    Mr. Saunders. I didn't like that movie too well.
    Mr. Souder. Too much romance.
    Mr. Saunders. Well, it was--it was all right. Some of the--
most of the stuff was OK, but if you really want the true 
picture of Pearl Harbor, see Tora Tora Tora. That's the one 
that tells you everything. That is the actual--as far as I'm 
concerned, it's the closest to actually being there. Tora Tora 
Tora, that's the movie to see. Pearl Harbor's a nice movie. It 
was interesting, but I didn't----
    Mr. Souder. Didn't capture it.
    Mr. Saunders. I didn't feel that it done Pearl Harbor 
justice, OK? I hope those people don't get that message there. 
I'm talking about the movie people. What do they call that 
place? Oh, Hollywood.
    Mr. Souder. Mr. Obey, in your written testimony--and it's 
something I neglected to ask in the first panel, but since you 
didn't get a chance to go over it in the abbreviated verbal, I 
think we should explore it now, and that's the air tours. Can 
you describe a little bit of that, what you had in your 
testimony. We have it written in, but much like the bikes, do 
you know the status of air tours or how that works currently?
    Mr. Obey. The Air Tour Management Act passed 5 years ago 
and the Park Service and FAA have yet to produce a single air 
tour management plan. That is a real issue in Hawaii. The parks 
in Hawaii were the first ones to start to embark on this. They 
probably--I would guess Volcano and Grand Canyon are among the 
tops in air tours in the country.
    Right now operators are operating under an interim 
operating authority. And basically what they--what they're able 
to do is the FAA has them estimate--give them what their 
numbers are in air tours that they run. The experience of the 
Park Service has been somewhat different in terms of what they 
observe as the numbers, and there are questions about why that 
is. And that's something that's worth exploring, but overall 
there's a real need to jump start this process. And the Park 
Service runs parks. FAA deals with planes, and the two need to 
communicate together about both of those things and about being 
sure that parks are protected.
    When I was at Hawaii Volcanoes yesterday and along the 
Chain of Craters Road, I walked out onto the lava to look at 
the lava tube. Great day to be there. And I was walking back, 
suddenly here's--it was dead silence, just phenomenal. I was 
the only person out there, sitting there all alone, and then 
suddenly comes a helicopter. It's jarring for people in that 
setting. I have taken--I've actually taken an air tour in 
Hawaii. I was here in 1995 during the Government closures. It 
was the only way I could see Haleakala was to go on a 
helicopter at that point, and safe to say I probably didn't 
disturb anybody on the ground in the park.
    But these are things that need to be managed, managed 
appropriately, and what's happening is because of the delay is 
that they're not managed appropriately. And we really need to 
get our arms around that, and I think Congress really needs to 
reengage it.
    Ms. Jarman, do you have comments on this? Obviously this is 
a huge tourism question.
    Ms. Jarman. I think there's two other issues that go along 
with the noise and disturbances in the park. One is the safety 
issue. Helicopters seem to go down at an alarming rate here in 
Hawaii. It's astounding, much more than you ever see planes 
going down. So I think the safety issue again, working with the 
FAA. And then outside of the park issue, people who live 
between where the helicopters take off and where they go in the 
park experience incredible, you know, daily noise pollution 
from the helicopters going over. So I think that's another 
issue that ought to be looked at, and hopefully Congress will 
work with the FAA and get the FAA to look at that. And, again, 
if the park can push that issue, and, again, look at the 
communities outside the park that are impacted as well.
    Mr. Souder. Ms. Case, I'm sorry because I'm getting older 
and I can't remember what the witnesses in the first panel 
said. The invasive species, these forms that we fill out on the 
airplane as we come in were designed to protect California, not 
Hawaii; is that what I understood?
    Ms. Case. Coming into Hawaii you fill out a form that's for 
the Department of Agriculture to inspect plants, but they're 
really inspecting for plant pests. They're not inspecting for 
the invasiveness of the plant itself. So there's a whole system 
missing here that we need to be able to prevent invasive plants 
from coming in. And there are computer-based interview 
questions now and data bases that you can predict whether 
something's likely to be invasive in about 6 hours with the 
right resources. So we have the tools in place to prevent new 
things if we can have the systems in places.
    Mr. Souder. Who's the major opponents of being able to do 
this? I'm too unfamiliar with the issue. What would prohibit us 
from implementing it? Cost? Is it sellers of exotic pests, 
certain types of plants, retail associations?
    Ms. Case. First of all, I don't think there's a lot of 
opposition to this kind of concept. There's a lot of expense 
associated with putting up the right prevention systems, but 
it's far cheaper--it's expensive, but it will cost way less 
than having to control those things. Later some of the 
landscape industry people want to make sure that their 
businesses aren't, you know, harmed greatly by restrictions on 
what they can bring in, and that is, in my mind, why it's so--
such a good opportunity that we have this new review system, 
that it won't take a lot of time. Not all plants that come into 
Hawaii are invasive. I would say a minority are. And so we just 
want to be able to screen out the ones that are going to be the 
next Miconia or the next fountain grass or pampas grass.
    Mr. Souder. Do you have any comments?
    Mr. Case of Hawaii. A comment on California, just to make 
clear what's happening. When anybody comes into Hawaii, there 
are certain regulations about what can and can't be brought. 
Although it's a--what's the converse of a likeness? A non-
likeness. It's--you can't bring these in but everything else 
you can bring in. So, first of all, it's letting a bunch of 
stuff in that shouldn't be coming in anyway. Second, there's no 
effective enforcement of what comes in, either on a cargo basis 
or a tourist basis. The only thing that happens to you when you 
come on a plane is you fill out that form. If you choose not to 
fill out that form or you fill out the form inaccurately, 
nobody's going to inspect anything when you get to the airport.
    When you go to the airport tonight, or whenever you're 
going, and you check your bags--well, assume you check your 
bag, you would have to go through a USDA inspection procedure, 
which lasts about--I don't know, it's not an inconvenience--in 
which USDA would actually look inside your bag to determine 
whether you're bringing in plant material.
    Mr. Souder. Why isn't that done coming in?
    Mr. Case of Hawaii. There's no good reason why it isn't 
done. It just wasn't ever done that way, and we never focused 
on in-coming inspection versus out-going. The mainland wants it 
because we have some agricultural pests here that if they got 
to the U.S. mainland, would be harmful to the U.S. mainland 
agriculture, and that's the reason for the USDA.
    Mr. Souder. And I'm in favor of that. Being in the midwest, 
I mean, we get all sorts of things that just devastate us. I'm 
wondering why the islands, being vulnerable----
    Mr. Case of Hawaii. Because we haven't done it. That's the 
only reason. We haven't focused on it. We need to say, let's do 
it, because we have a lot--we have just as much at stake. And 
who is opposed to it? As Suzanne said, really, the vast 
majority of people are not opposed to it. There are certain 
industry segments that are fearful of it, initially, because, 
frankly, they would be inspected and probably identifying 
invasives which are coming into our system. But it would be 
pretty straightforward, the same way we inspect outgoing. And 
financed from the airport fee, just as the outgoing stuff is 
financed. It could be put in place pretty fast. So that's a 
pretty basic start to protect our National Parks as well as the 
rest of Hawaii.
    Mr. Souder. Mr. Obey, let me ask one. I know this has gone 
on long. I'm going to wrap up my part here in just a second.
    You've heard me talk a number of times about the Internet 
and how to view this. Have you ever heard--or if we outfitted 
parks with the advance in technology, is there any--have you 
ever heard of, other than certain technology purposes, any 
reason why, for example, ranger talks couldn't be broadcast 
over the Internet, including with video? If you had a certain 
amount of investment capital in each park, where you could at 
your home tap into the computer, maybe hook it up to your big 
screen TV--and who knows, 10 years from now where we're going 
to be with this, but that you could look that tonight there's 
this ranger talk.
    You don't get the smell of the camp fire. You don't get 
being out in the woods, or paradise, or Old Faithful Lodge, but 
what we've seen from use of the Internet--much like books on 
tape or video rentals, the theory was that it was going to 
destroy the visits, you know, to the library, it would destroy 
book clubs, but in fact people who go to the library go to book 
clubs and they go to bookstores. But it probably would increase 
park attendance, not decrease park attendance if you could go 
on the Internet and say, wow, I have a choice of 150 ranger 
talks tonight at 7 p.m. live. Any of this type of stuff, is it 
done? Have you seen why that couldn't be done, other than a 
technological thing? And we're down to the point where we can 
do this technologically for $2,000.
    Mr. Obey. I think there's so much more that the Park 
Service and other agencies can be doing through the Internet. 
One example, I spent the last 3 years, up until the end of the 
last Congress, working to expand Petrified National Forest in 
Arizona. David Jillet, who is a paleontologist with the museum 
in Arizona there who worked with--did a dinosaur dig where they 
had hook-ups with schools from around the country. That may 
have been international. I'm not sure. But thousands and 
thousands of kids. And they were prepped in their classes in 
advance. They had wonderful questions. Dave said that when he 
would--when kids would be asking questions--it was interactive. 
They could actually ask questions. He'd hear other kids 
cheering in the background. They were so excited by this 
experience. And it's just something that you can't--you can't 
even begin to quantify, you know, how important that is.
    You know, when you talk to people about what got you 
interested in National Parks, you know, 98 percent of them are 
going to say it happened when I was a kid. And kids use the 
Internet more effectively than probably any of us, and it's 
something that really needs to be done more. It can never and 
it shouldn't ever be thought of as a replacement for visiting a 
park and getting that total experience, but it's something that 
can draw people in. And I think it could.
    Both that and David Macalla always talks about history and 
how historically illiterate we are as a Nation, and he's done a 
great deal with the parks in trying to bring history alive for 
kids. When it's taught in the classroom, it's by and large one 
of the classes kids find dull as can be because just the 
dryness of the textbooks that they get. And when you can walk 
into Addams House or visit a Pearl Harbor and get that 
experience and gain a fuller understanding of this is where 
these people lived, this is where they walked, this is where 
the bombs fell, or whatever it may be, it brings it alive and 
it makes it tangible and connects you to something that's very 
important about your own history, about American history. I 
think what we can do through the parks, through the Internet, 
through overall technology is bring that into the classroom.
    Mr. Souder. Because looking at one relatively small event 
could conceivably, through either public access in a meeting or 
through schools, reach as many people as Pearl Harbor has visit 
in the entire year. 1.5 million wouldn't even be an 
extraordinary number for hitting some kind of--particularly as 
each of these channels get five variations on the channel and 
they start looking for unique programming to offer, and through 
satellite television this is going to explode, the demand for 
youth programming.
    And what we're sitting on in the Park Service are resources 
that could just--you take a category of volcanoes, a category 
of World War II history, a category of--pick an animal. You 
know, the military bases that are going into the Park Service, 
and just the diversity of the Park Service is overwhelming, 
that there are so many different angles.
    One thing that I was thinking from the first panel and this 
panel is the training of teachers that Pearl Harbor did through 
the NEH, that our subcommittee also has jurisdiction over NEH 
and the Department of Education, and maybe looking at a 
Washington version of this where we pull a number of the 
different agencies in with the Park Service, pull them in 
together and say, look, rather that stovepiping each year, how 
are you cooperating together? And if we could figure out--much 
like we've talked about the arts in the parks and when we--the 
National Gallery highlights the Park Service and the Library of 
Congress with their materials, to do a massive rebuild toward 
this 100th anniversary. What can we do to extend the range of 
this?
    Mr. Obey. I think it would be worth having that 
conversation.
    Mr. Souder. Do you have any additional comments or 
questions?
    Mr. Case of Hawaii. No.
    Mr. Souder. Maybe if each of you would like to make a 
closing statement also. Think of where you have any thoughts, 
given what you heard today, where we should be pushing, and 
then additional thoughts on the 90th and the 100th birthday. 
Start with you.
    Mr. Obey. I think these hearings are a great start, 
frankly. They're helping to bring attention to this issue. I 
think relevancy is incredibly important. Brian O'Neill at your 
San Francisco hearing I thought just gave a terrific response 
to this question, talking about the need for parks to be 
inspirational to people and for excellence and to have parks 
really be--that ultimately when you go to a park you expect the 
best of the best and it inspires you to bring it home, make it 
a part of your life, a part of your community. I think that's a 
terrific message about the National Parks to make them relevant 
for people in their daily lives and connect them longer term to 
what we need to do, why we need to preserve these things, and 
not just as an attraction, but something that really matters.
    Mr. Souder. Ms. Case.
    Ms. Case. I just want to thank you again for holding these 
hearings. I think it's a great example of dedication to making 
our parks really the lasting heritage they are. I think 
personally my commitment to conservation in Hawaii draws very 
deeply from my childhood experiences at Hawaii Volcanoes 
National Park and Haleakala National Park, and that kind of 
experience is invaluable. It's a value for environment. I think 
there are significant acquisition opportunities and 
opportunities to stem the tide on invasive species. There are 
certain things, if we can't do them now, we will have a much 
harder time, and I think those are the things we want to focus 
on in particular so we can have a great celebration in 2016.
    Mr. Souder. Mr. Sullivan.
    Mr. Sullivan. A couple of things, Mr. Chairman. Iwould be 
remiss if I didn't recognize the East West Center and the 
University of Hawaii in cooperation with us on the teachers 
workshop. They're very, very helpful. The other point I would 
want to make is we are also a cooperative association with the 
War of the Pacific Museum in Guam and the American Memorial 
Park in Saipan. A visitor center opened there this past 
Memorial Day, and they'll open a bookstore there as well. And 
we're also over in Kalaupapa. We have bookstore there and open 
about 2 hours a day. And our employees are two of the patients 
there.
    Mr. Souder. Mr. Saunders, do you have anything?
    Mr. Saunders. I'd just like to finish here. I mentioned 
that I had come back to the--what happened to the Shaw. They 
put a false bow on the Shaw, and this was right from the 
bridge, if you understand what I'm talking about, that whole 
front of the ship was gone. They just blanked it off with a 
sheet of metal, welded it in, and it went back to the shipyard 
in San Francisco. And when they got the ship there the yard had 
already rebuilt another bow and they married it up, and 2 weeks 
after the ship got to Hunter's Point in San Francisco, 2 weeks 
after it got there it was back out to sea again and it finished 
the war. I don't know what happened after that, but I thought 
that might be to your interest.
    Mr. Souder. Yeah, that's amazing. It's amazing that you 
remembered that you didn't finish the Shaw part. Pretty good 
memory. Ms. Jarman.
    Ms. Jarman. I'd also like to express our appreciation to 
you for taking the time to come out to Hawaii, and you and 
Congressman Abercrombie for actually attending the hearings as 
well. I'd also like to say that I've been fortunate enough to 
work with both Superintendent Bell and Superintendent Orlando, 
and I'd like to say for the record they are excellent people to 
work with. They are stars as Federal employees, and I just 
would like to commend them on the record for the work that they 
do and how wonderful it is to work with them.
    And finally I'd like to address Congressman Case's issue 
about adding areas to the park, and the problem--we have 
Kahuku, but there's not enough funds to manage it. But another 
way of thinking about it is to try to enter into cooperative 
agreements with non-profits to help manage. My significant 
other is working with the State to manage an area that the 
State owns down below Waiohinu, and it's one of the areas I 
know you're interested in including in Federal partnership. And 
the State doesn't have the resources to manage it, and it's 
just this incredible coastal plant communities down there and 
very little visitorship because of where it is. And they're 
going to pay the Wildlife Fund $1 a year to actually manage to 
try to get rid of the invasives and keep the plants.
    So another thing I think to look at is going to cooperative 
agreements. We have Adopt-a-Highway, Adopt-a-Stream programs, 
why not Adopt-a-Hiking Trail in the park? And you can use your 
community groups and student groups to help deal with some of 
the invasive species and other issues. Thank you.
    Mr. Souder. Well, I thank you all. With that, the 
subcommittee stands adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7922.028

[GRAPHIC] [TIFF OMITTED] T7922.029

                                 <all>

</pre></body></html>
